<html>
<title> - IMPLEMENTATION OF READING PROGRAMS AND STRATEGIES</title>
<body><pre>[Senate Hearing 107-517]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-517
 
           IMPLEMENTATION OF READING PROGRAMS AND STRATEGIES
=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE IMPLEMENTATION OF THE NO CHILD LEFT BEHIND ACT (P.L. 107-
110), FOCUSING ON THE READING FIRST AND OTHER LITERACY-RELATED PROGRAMS 
                             AND STRATEGIES

                               __________

                             JUNE 13, 2002
                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions









                        U.S. GOVERNMENT PRINTING OFFICE
80-344                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel

             Townsend Lange McNitt, Minority Staff Director

                                  (ii)

  








                            C O N T E N T S

                               __________

                               STATEMENTS

                        Thursday, June 13, 2002

                                                                   Page
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1
Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire.     2
Collins, Hon. Susan M., a U.S. Senator from the State of Maine...     3
Hickok, Eugene, Under Secretary, U.S. Department of Education....     4
Nathan, Ruth, reading teacher, Alamo, CA; Trisha Rhodes, reading 
  recovery teacher, Hancock County Consortium, Bar Harbor, ME; 
  and Elizabeth Primas, reading specialist and teacher, Bowen 
  Elementary School, Washington, DC..............................    12

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Eugene W. Hickok.............................................    25
    Ruth Nathan..................................................    26
    Trisha Rhodes................................................    32
    Elizabeth Primas.............................................    33
    Response to questions of Senator Kennedy from Eugene W. 
      Hickok.....................................................    35

                                 (iii)

  












           IMPLEMENTATION OF READING PROGRAMS AND STRATEGIES

                              ----------                              


                        THURSDAY, JUNE 13, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Kennedy 
(chairman of the committee) presiding.
    Present: Senators Kennedy, Gregg, and Collins.

                  Opening Statement of Senator Kennedy

    The Chairman. Good morning. We will come to order. Today, 
we hold the second in a series of oversight hearings we plan on 
the new bipartisan No Child Left Behind Act, signed into law in 
January. We held the first hearing on the overall status of the 
implementation on April 23rd.
    This morning, we have the opportunity to focus on the 
implementation of the Reading First program and other literacy-
related programs.
    Reading is the foundation of learning and the golden door 
to opportunity. Too many children fail to read at an acceptable 
level. For the students who do not learn to read well in the 
early years of elementary school, it is virtually impossible to 
keep up in the later years. We are grateful that the 
administration, especially the First Lady, have made reading a 
priority.
    Parents and teachers want reading programs that work--that 
help children master the basics, comprehend the material, and 
learn to love to read. That is why the new law supports a wide 
variety of programs that are research-based with proven 
effectiveness, including small group, classroom-based, and one-
on-one tutoring, as well as professional development for 
teachers and attention to the lowest achieving children.
    The law does not pick and choose among programs, but allows 
for home grown strategies that meet the needs of the children 
in individual districts. As long as any program or strategy is 
proven effective, it can be funded, and it is important that 
the U.S. Department of Education implement the law in this 
spirit.
    We cannot expect better reading achievement by limiting the 
options that schools have to address the leading reading needs 
of children. We should focus on the quality of their strategies 
and the results achieved.
    The new law will only be successful if the implementation 
of each of its components is successful and if each of the 
programs are fully funded.
    We made a down payment on school reform last year. We have 
a continuing and growing obligation to provide the resources 
that teachers and students need and deserve. Even with the last 
year's increases, the funding for the Title I still leaves 6 
million needy children behind. I am deeply concerned that the 
budget for next year proposes to cut funding for public school 
reform and divert resources to private schools.
    These cuts are producing a double-whammy on schools. While 
the budget underfunds education, the State budget shortfalls 
and declining local revenues are resulting in cuts to school 
districts across the country, forcing the teacher lay-offs, 
elimination of summer school programs and other cuts to 
services for children.
    We cannot ask more of students, teachers, and schools, yet 
provide them less help in meeting the goal of leaving no child 
behind. We must work together to ensure that schools and 
communities receive more resources, not less, so they get the 
support they need to succeed. The Nation's children deserve no 
less.
    We welcome Under Secretary Gene Hickok to our first panel 
of the hearing today, and we look forward to learning about the 
Department of Education's progress in implementing the Reading 
First program and other literacy-related programs.
    Senator Gregg?

                   Opening Statement of Senator Gregg

    Senator Gregg. Thank you, Mr. Chairman. I thank you for 
holding this hearing.
    I believe firmly the Reading First program represents one 
of the most significant reforms included in the No Child Left 
Behind Act. As we all know, reading scores of our students are 
abysmal. Forty percent of the fourth graders score below the 
basic and National Assessment for Education progress scores, 
scoring below basic means. These children are virtually 
illiterate. These scores are even more dismal when you break 
them out by poverty. Sixty percent of school children score 
below basic.
    Furthermore, we know that 90 percent of learning 
disabilities are directly related to a child's reading 
deficiency. If many of these children were exposed to good 
reading programs, we could very well see a significant 
reduction in the number of children who would be classified as 
learning disabled.
    Reading and comprehension provide the foundation for all 
learning. We cannot move onto history, science or even 
mathematics if we do not have a firm foundation in reading. The 
sad truth is that there is no reason why these scores should be 
so low. We have ample data, scientific data published by the 
National Research Council and the National Reading Panel on how 
to teach children to read. We now know, through scientific 
research, that many parents and teachers have known for years 
that phonics works, kids must be taught to recognize letters 
and the words that they make.
    The President, in conjunction with the Congress, overhauled 
an expanded an existing reading program and the Reading 
Excellence Act to make it a more rigorous program, now referred 
to as the Reading First Act. Last year, we tripled--tripled--
the funding for reading, from $286 million during the last year 
under President Clinton to $976 million in the year 2002 under 
President Bush.
    The vision behind Reading First is right on target. We must 
dramatically change our reading, how reading is taught, and 
that change must be systemwide in order to yield the results 
that we are looking for; that is, that all children, not 30 
percent, not 40 percent, not 50 percent, but all children be 
ready to read, and be reading, at their grade level by the time 
they exit the third grade.
    Since the law was intended to leverage systematic change, 
the emphasis is to change reading instruction in the 
classrooms, rather than one-by-one. Programs that provide 
individual supplemental support are an important component of 
the successful reading instruction when such support is 
provided in conjunction with an overall classroom instruction 
in reading.
    The Reading First program rightly requires States and 
school districts to use reading programs and instructional 
practices that incorporate the techniques and strategies that 
scientifically-based research reading has shown to be elemental 
to the success of reading programs. This includes phonics, 
vocabulary development, reading fluency and reading 
comprehension.
    Now that we know what works, we can no longer simply 
support reading programs that have been used in the past, 
unless, of course, they incorporate the key ingredients to 
successful reading instructions. If we are to meet our goal 
that all children should learn to read by the end of the third 
grade, we must be both selective and flexible in choosing 
reading programs that work.
    I applaud the administration for focusing on reading. Their 
commitment to improving reading for all children is evidenced 
not only by the historic increase in funding, but by the fact 
that the Department of Education hit the ground running. 
Guidance for the Reading First program was the first of the No 
Child Left Behind programs to be issued. In addition, the 
Department held workshops and symposiums on effective reading 
practices for States and school districts.
    I look forward to hearing from our second panel of 
witnesses, all of whom are reading teachers, as to what reading 
strategies they use in their classrooms.
    This should be an excellent hearing, and I appreciate the 
chairman holding it.
    The Chairman. Thank you.
    Senator Collins?

                  Opening Statement of Senator Collins

    Senator Collins. Thank you very much, Mr. Chairman, for 
scheduling this hearing on the implementation of the Reading 
First initiative contained in the No Child Left Behind Act.
    We share a commitment to ensuring the successful 
implementation of the Reading First program and to ensuring 
that every child is able to read, for reading is truly the 
gateway to future academic success. We know, from research, 
that effective reading instruction and intervention in early 
childhood are crucial to providing the proper foundation for 
future success. If a child's reading difficulties are detected 
early and she or he receives help, that child has a 90- to 95-
percent chance of becoming a good reader. On the other hand, if 
intervention occurs too late, that is, after third grade, the 
chances of that child ever becoming a good reader plummet.
    For this reason, investment in early reading programs, and 
particularly in our teachers, is one of the best ways to ensure 
that we leave no child behind. In fact, I have often said that 
the best way to ensure that we leave no child behind is to 
teach every child to read.
    I am very proud of the success that we have had in my home 
State of Maine in teaching our children to read. Maine leads 
the Nation, year-after-year, on national reading tests, and I 
think we can learn a lot from the programs of Maine, and I am 
very pleased that the chairman has invited a teacher from Maine 
to testify on our second panel.
    Thank you, Mr. Chairman
    The Chairman. Thank you very much.
    We will proceed. I want to just mention one item, Mr. 
Hickok, and that is about the important meeting today you are 
holding about the implementation of supplemental services. It 
was brought to my attention, and I just bring it to yours, that 
the PTA, the major parents' organization, was not invited by 
the Department, and you might check that out, if you would.
    Mr. Hickok. I sure will.
    The Chairman. Senator Reed and I sent a note to the 
Secretary a few weeks ago, and we received a very commendable 
response about the importance of the parents in education. It 
mentions that you are taking a series of actions to ensure the 
views of parents are considered as we implement the law, and it 
goes on indicating the Secretary's strong views and the 
importance of parent involvement.
    But I bring that to your attention for your information 
that parents were not included in the meeting, and you can 
pursue it in whatever way.
    Mr. Hickok. I will definitely.
    The Chairman. We look forward to your testimony.

  STATEMENT OF EUGENE HICKOK, UNDER SECRETARY, UNITED STATES 
                    DEPARTMENT OF EDUCATION

    Mr. Hickok. Thank you, Mr. Chairman. I will certainly 
follow up on that information. I appreciate you giving it to 
me.
    Mr. Chairman, members of the committee, thank you very much 
for the chance to be with you today to talk about the reading 
initiatives under No Child Left Behind. We, as you have all 
stated, considered these reading initiatives to sort of be the 
cornerstone of No Child Left Behind. Because as all of you 
stated, I think with eloquence, the fact is, if we are going to 
make that pledge real in this country, probably the single most 
important thing for us to do is make sure the children can read 
at an early age.
    I will submit my testimony for the record. Just a few 
things from my testimony.
    Reading First focuses on what works, and that is very 
important because we know what works in reading. In a lot of 
areas of education, we are still learning what works, but in 
reading we know what works, and it is past time that we focus 
on what works.
    We know that the research tells us that there are five 
interrelated components to sound instruction in reading: They 
are phonemic awareness, phonics, vocabulary development, 
reading fluency and reading comprehension. All of these have to 
be a part, in varying ways, of a comprehensive approach to 
reading instruction.
    State plans that are funded under Reading First will have 
to demonstrate their ability to address these components in a 
comprehensive and effective manner, but as has also been 
stated, the Department has no pre-approved list of programs or 
providers or vendors. Our goal is to look at each plan on its 
own merits, using the criteria that I just referenced, making 
sure that each plan reflects the needs of the State, as that 
State can best address the need to make sure children can, 
indeed, read.
    While the majority of the Reading First funds will be used 
to improve reading instruction to the district in the school 
level. Each State may reserve up to 20 percent of its total 
allocation to carry out effective activities for professional 
development. We know that far too many of our good teachers 
need professional development on reading instruction, technical 
assistance, and administration and reporting.
    So our goal here under Reading First is certainly to change 
the way reading instruction takes place at the classroom level, 
but it really is to also enter in a new age of reading 
instruction so that all instructors have a better sense of what 
needs to be done to make sure no child is left behind.
    As far as implementation, I appreciate Senator Gregg's 
comments about how quickly we have attempted to get this out to 
the field. The fact is, within weeks of the President's signing 
No Child Left Behind, we held a series of Reading Leadership 
Academies, and virtually every State came to one of these 
academies, a team of folks, where they received 2 days of 
intensive instruction on Reading First, Early Reading First, 
application information, etc. They were very successful. We 
have had lots of positive feedback on those.
    On April 2nd of this year, the Department released the 
application instructions and nonregulatory guidance, and the 
application package also included criteria for the review of 
State applications. We have sent out publications. I will just 
show two: One was done by the Department, that is ``Put Reading 
First.'' It has received a lot of positive feedback. It is all 
over the country; and, then, frankly, a very excellent one put 
out by the American Federation of Teachers called ``Teaching 
Reading is Rocket Science,'' which I think is not only an 
interesting title, but probably a pretty accurate one--
excellent publications that have received a lot, a lot of 
interest at the grassroots level.
    On May 13th, just last month, the Department announced the 
names of more than 70 national experts and practitioners who 
will serve as the review panelists. As you know, the 
legislation calls for panelists to be chosen for various 
organizations and fields, and they are already busy trying to 
review the applications we have received in an attempt to make 
good on the potential of Reading First.
    So I will stop with my comments now, except to point out 
two things, if I might. I believe it was Senator Collins, maybe 
all three of you, mentioned the test scores in the Nation and 
how the test scores, NAPE scores, in particular, demonstrate 
that while we have, as a country, sent a lot of money into 
instruction, the fact is our test scores demonstrate a very 
flat performance level, a very disturbing performance level on 
reading.
    I always like to point out the faces behind the test 
scores. I do not want to get too dramatic here, but if I could, 
just for a second, take you to a school I visited, before I 
became Under Secretary of Education, in Philadelphia, a city I 
care a great deal about.
    In that school, I can take you to a third- or fourth-grade 
classroom--let's say a fourth-grade classroom. If you walk in 
that school with me today, you will see a group of kids who are 
excited, as fourth graders typically are, a group of kids in a 
bright, colorful classroom, with drawings on the walls and 
books everywhere, a teacher who is dedicated to those kids, and 
as you look into those kids' eyes, you will see the kind of 
hope, and opportunity, and potential that every child has in 
this great Nation.
    But as you look at those kids, and let's say, for the sake 
of illustration, maybe they are 25 or 30 kids, let's say 30 
kids in this classroom, and as you look in their eyes, remember 
that in this classroom perhaps 26 of those 30 kids cannot read 
at a third- or fourth-grade level. And yet, at the end of this 
school year, probably all 30 will go on to fifth grade, and as 
they go along, they will be passed on and on through a system, 
and gradually far too many of those 30 will fall by the 
wayside.
    This is not about blaming anybody, but I think we need to 
remember those faces behind those numbers and make reading the 
kind of national priority that the President, the House, and 
the Senate say it should be, and that is what Reading First is 
all about.
    I thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Hickok may be found in 
additional material.]
    The Chairman. Well, thank you very much. We certainly hope 
that that school will, and those children, will have the 
opportunity to be covered by the program as well.
    Let me ask you, Secretary, if you can tell us about the 
status of the State Reading First applications. I would be 
interested in how many States have applied for the Reading 
First grants to date.
    Mr. Hickok. I got the latest update just this morning as I 
walked into the hearing. At this point in time, we have 31 
applications, from 29 States, American Samoa and the Bureau of 
Indian Affairs, at this point in time.
    The Chairman. Have any been accepted or any been rejected?
    Mr. Hickok. None have been accepted yet, in terms of final 
decision, and none have been rejected.
    I would refrain from using the term ``rejected'' in the 
sense that what we will be doing with the States, as we get 
applications, if there are problems with the application with 
regard to how the peer review process judges the application 
against the criteria and the law, then our goal is to go back 
to the States and work with them to get their applications 
where they need to be.
    In the end, that will be a process that goes on, and on and 
on because our goal here is for every State to participate, and 
every student, every child to have some success with this. So 
our hope is there will be no rejections in the end.
    The Chairman. Well, that is certainly our hope. We would 
like to work with you to make sure we are going to get funding 
to the States for quality programs, as you have outlined, but 
we want to work with you to find out the ones that are getting 
approved right away. We would like to understand what the 
quality programs are doing and how they are going. The other 
ones that are not making the grade, we would like to know what 
the Department's view is going to be with regards to them, as 
you bring them along--what is the emphasis, what sort of 
opinions are involved in this, so that we have a way of 
understanding that.
    We will work out process with you, so we can follow that.
    Mr. Hickok. Certainly.
    The Chairman. On the Early Reading First, could you tell us 
a little bit about how the status of that program is moving 
along.
    Mr. Hickok. Well, guidance is out there. Applications are 
being accepted. It is a competitive grant program, and it has 
really got two components, if you think about it. It is aimed 
at getting the earliest learners prepared to go to school 
prepared to learn how to read. So it is more of a preparation 
program than a reading program, quite literally; and, second, 
there is also a professional development aspects because these 
children need instructors and providers that have a good set of 
skills to be able to accomplish that purpose.
    It is very much underway. It is early now to say where we 
are going to be in terms of total numbers of awards given.
    The Chairman. Have you had applications? You do not have 
a----
    Mr. Hickok. Not yet.
    The Chairman. What is your expectation about applications?
    Mr. Hickok. As far as numbers?
    The Chairman. Yes. I mean, when do you expect to get your 
first sort of applications, general time to consider them, and 
when do you think that they might support----
    Mr. Hickok. We expect to have the process underway soon, 
and fully funded, and fully engaged by December--the end of 
this year.
    The Chairman. Last week I had an opportunity to attend, 
briefly, the First Lady's first Conference on School Libraries. 
School Libraries supporters are an impressive group of people 
from the Department, national people, individuals, leaders that 
have thought a lot about the role of the libraries and are 
very, very supportive of it.
    On our committee, I think we can all agree, that Senator 
Reed, from Rhode Island, has been clearly our strong leader on 
this issue.
    We are reviewing now the hopes for these school libraries, 
and the importance that are given that we have the national 
attention they deserve, and at the resources they need. The 
President's budget includes is a $12.5-billion request for 
school libraries--level funding. I know that money is not 
everything, and I know there were some differences about 
whether we ought to have any school library provisions in No 
Child Left Behind, but I am interested in how the Department 
intends to follow up on the First Lady's excellent conference 
that she had and how you think that that can be best achieved 
with the resources that are going to be available.
    Mr. Hickok. The First Lady's conference generated, within 
the Department, as well as outside, a great deal of 
conversation about school libraries, and libraries, generally. 
In my previous life, as Secretary of Education in Pennsylvania, 
in that State I had responsibility for oversight of libraries, 
too, community libraries.
    One thing I think that is relatively common across the 
Nation is that, as we look to better usage and better equipment 
in our libraries, our school libraries, we need to also 
recognize that the library community has got several dimensions 
that sometimes they do not relate to each other too well. You 
have got the university or academic libraries, you have got 
community libraries, and then you have school libraries. In far 
too many places, they do not talk to each other.
    So one of our goals would be to find ways, strategies, to 
sort of leverage those resources so that you have a far more 
comprehensive approach that can only end up benefiting school 
libraries, to a great extent, and where you have a lot of 
duplication, get rid of the duplication so you have better use 
of existing resources.
    So, really, it is a combination of leveraging the funding, 
but also leveraging the ideas in those three different, but 
related, communities.
    The Chairman. Senator Gregg?
    Senator Gregg. Yes, you said these proposals would be peer 
reviewed. What is the peer group made up of?
    Mr. Hickok. The legislation, the law says that individuals 
have to be chosen from various organizations, and let me get 
that information for you. The Secretary's Office, the National 
Institute for Literacy, the National Research Council of the 
National Academy of Sciences, the National Institute of Child 
Health and Human Development, and they should be experts in the 
acquisition of reading skills, cognitive signs of language and 
reading processes----
    Senator Gregg. Is that group up and running?
    Mr. Hickok. Yes, they are.
    Senator Gregg. They have been named, the individuals have 
been named?
    Mr. Hickok. They were named. Their names were released 
sometime in May. They met in May, as a group, to learn about 
the application process, to get know one another. They are now 
reviewing applications, as we receive them, in groups of five.
    Senator Gregg. I was interested to read, I think it was a 
couple of days ago, in some article, the report on the 
Annenberg contribution, the billion dollars, and how there was 
a feeling that its impact had been marginal because the money 
had been spread too thinly. Of course, we are dealing here with 
a program that is approximately a billion dollars. I am 
wondering if we are going to have that same problem with this 
program, that it will get spread too thin across all of the 
States. Is there some way to focus the dollar so we get more of 
a product?
    Mr. Hickok. I think a couple of responses.
    First of all, one reason that we have this unique 
combination of a State formula grant, but a peer-review 
process, is to make sure that the resources do get spent in a 
way that we have a lot of confidence will end up in results.
    Second, the way the money is then subgranted out to school 
districts and the accountability provisions that have to be 
part of any State plan, the goal there is also to make sure 
that there is a way to follow the implementation. In other 
words, we do not just give the money to a State, and the States 
to the districts and then to hope good things happen. Part of 
the comprehensive plan is to follow the implementation ongoing 
and also to have assessments to make sure we know whether or 
not success is taking place. It is very targeted, very targeted 
to the most needy students and the most challenged situations.
    And then, of course, as I mentioned in my testimony, a lot 
of money is reserved for State activity so that you have got 
professional development, instruction at the local level 
targeted and State activity aimed at transforming the way the 
State understands its obligation with regard to reading for 
young people.
    Senator Gregg. Is this peer-review process going to base 
its evaluation on phonics?
    Mr. Hickok. It is going to base its evaluation on the five 
components that I mentioned, and phonics is one of those 
components.
    Senator Gregg. Two of those are basically phonics.
    Mr. Hickok. Well, phonics and phonemic awareness, and you 
are probably better to ask the experts that will come after to 
me on reading about the difference between those two things. 
But as I understand it, phonics is the ability to make the 
sounds that letters are all about, and phonemic awareness is 
the ability to relate text to sounds. Again, that is my very 
modest understanding of the difference.
    But there are five components to reading instruction that 
need to be in place. The thing to remember, the experts told me 
as well, is that the degree to which those components are in 
place will differ with regard to the children's needs. The goal 
here is that every child needs all five of these components, 
but they might need emphasis on various aspects of those.
    So it really will have to be a combination of scientific 
research and understanding the needs of the individual students 
as they are getting the instruction they need.
    Senator Gregg. Thank you.
    The Chairman. Senator Collins?
    Senator Collins. Mr. Secretary, first, let me join my 
colleagues in commending the Department for acting quickly to 
implement this landmark legislation. I know that represents a 
great deal of work and commitment on your part, the Secretary's 
part, and all of the Department, and we thank you.
    In your written testimony, you indicated that the 
administration will not create any list of approved programs 
and that you will support a variety of paths, provided that 
they are based on scientific research. Reading experts tell us 
that different techniques work well with different children, 
and therefore I think it is imperative that we give flexibility 
to the States and to local schools, as long as they are using 
reading programs that have proven to be effective.
    There are concerns, among some States, that the Department 
may attempt to limit funding for certain programs, despite 
their proven effectiveness. Maine has devoted considerable 
resources during the past 8 years to the Reading Recovery 
program as being an important part of Maine's commitment to 
meeting high standards for literacy for children.
    Maine has approximately 350 Reading Recovery teachers who 
are providing services to meet the needs of first-grade 
students, with intensive one-on-one instruction as part of an 
overall approach to reading. As I indicated in my opening 
comments, we have had a lot of success.
    Is there anything in the guidance that the Department has 
given so far that would preclude funding for Reading Recovery 
programs.
    Mr. Hickok. No, there is not, and I want to make sure that 
that is pretty well understood, not just by the committee, but 
by everybody. I mean, the fact is we will have, if I might say 
so, we do not have a dog in this fight. Our only goal is to 
make sure that whatever is being done at the State and local 
level results in students being able to read by Grade 3.
    The real sad part of the story is, while we do not have a 
whole lot of knowledge about some things in education, we know 
about reading, and yet in far too many places, we are not 
successful. So the goal here is to transform the culture of 
education with regard to reading.
    Reading Recovery, as far as I know, can be a part of that 
transformation. It has to be able to make its case, within a 
State application, the way everybody else does, in terms of 
those five components.
    The goal here is to transform the classroom and the 
instruction, but as I said just a moment ago, it is also to 
recognize the individual needs of individual students. The goal 
would be preventative programs, so the need for intervention 
and remediation is limited, but that does not mean that reading 
recovery or any other successful program that has got the 
science and can demonstrate it in an application cannot be a 
part of this. The goal here is that end to success.
    Senator Collins. Thank you. I very much appreciate those 
reassurances.
    In your testimony, you also indicated that Reading First 
funds will focus on providing increased levels of professional 
development. I think that is absolutely critical. Other than 
involved parents, a well-qualified, well-trained teacher is the 
most important prerequisite for a student's success.
    We, in Maine, are now embarking on the challenge of 
designing a statewide professional development program for K 
through 3 teachers, as well as statewide professional 
development for all K through 12 special education teachers. 
Have any models been developed by the Department to give 
assistance to the States in developing professional training 
programs for reading teachers and for special education 
teachers?
    Mr. Hickok. Well, the Reading Leadership Academies talked 
about that issue, both in terms of Reading First, Early Reading 
First and professional development, and I can make sure that we 
get to you whatever models or examples that would be helpful.
    I would like to highlight something in professional 
development, and that is that in far too many places, we have 
recognized a real need in professional development and in 
teacher preparation to understand better the components of 
reading instruction.
    Just as I took you a few moments ago to the school in 
Philadelphia where you saw a lot of hollow hope, I can take you 
to a school somewhere else where the teachers are very excited 
and glowing about the success they have had in the classroom, 
and yet, when you look at the test scores on reading, maybe 40 
percent of their kids cannot read. They do not realize, even 
though the data is there, that they are not having the kind of 
success they should have.
    Again, not to blame anybody, they are lacking the 
background, the skills, and the knowledge they need to have 
successful reading for their kids, and that is evidence that 
that professional development challenge is a very important 
one. We are eager to help anybody on that.
    Senator Collins. Thank you.
    The Chairman. I want to thank you very much. We know, the 
challenges that we are facing with cutbacks in school budgets 
all over the country.
    A very touching story was this story about a first grader, 
Alec Oswald from California, who wanted to unwrap a Playstation 
II, when he celebrated his 7th birthday. But instead of putting 
a video game on his wish list, the student asked his guests--
his young friends--to give money they would have spent on gifts 
to his cash-strapped school. And he arrived at the school with 
a present for the principal, Andy Tunnel [ph], and it was a 
check for $275 so that they could keep his teachers.
    There are a lot of things that we cannot obviously get the 
States to change, they are going to make judgments and 
determination, of their own, but these children are out there 
that need our help. It is on our watch every year, if they are 
not getting this kind of treatment and attention. We have a 
good program to improve education, but we want to make sure 
that we are going to get it right and provide the resources for 
it.
    I think Senator Collins pointing out that these 
comprehensive, science-based, strategies which in terms of 
reading are so important is critical. So many different facets 
are necessary to get children to learn to read well, but it 
takes investments, and we are all going to have to try and do 
our bit on this.
    I do not want to unduly raise this with you, Mr. Hickok, 
but it is something that I do not want to let an opportunity go 
by without mentioning the importance of making sure that we are 
going to have the resources to do the good work that we have 
agreed to all do together.
    We thank you very much for being here.
    Mr. Hickok. Thank you, Senator.
    The Chairman. Our second panel consists of reading teachers 
from across the country.
    First, Ruth Nathan, a reading specialist and third grade 
teacher from the San Ramon Valley Unified School District. She 
also works as a language literacy consultant in California. In 
addition, she teaches classes on literacy at UC Berkeley. We 
are pleased to have Dr. Nathan today not only to share 
classroom experiences, but also to share what she has found to 
be effective practices through her research.
    I would like to welcome Elizabeth Primas, a reading 
specialist for Bowen Elementary School here in Washington, DC. 
She has been a teacher for 26 years. Her expertise is working 
with teachers' aides to try to ensure that students learn how 
to read early and learn how to read well. We are pleased Ms. 
Primas is here today to share personal stories what happens in 
the classroom and what is needed to ensure that no child is 
left behind.
    And then we have Patricia Rhodes, who I would ask if 
Senator Collins would like to introduce.
    Senator Collins. Thank you, Mr. Chairman.
    It is my pleasure to introduce Trisha Rhodes from Bar 
Harbor, Maine. Ms. Rhodes is a reading teacher specialist and a 
teacher leader for the Reading Recovery Program. She is based 
at the Conners Emerson School in Bar Harbor, a school that I 
happened to visit just a couple of weeks ago, and had the 
pleasure of reading ``Blueberries for Sal'' to a group of first 
and second graders.
    Ms. Rhodes received her bachelor's degree from the 
University of Maine in speech communication, and later went on 
to receive her master's degree in reading and language arts 
from the university. She is certified as a literacy specialist, 
a K through 8 classroom teacher and a speech and language 
clinician.
    She decided some time ago, after teaching for several 
years, that she could have more impact by helping children at 
an earlier age, and she became trained in the Reading Recovery 
Program and has worked in this capacity for the past 11 years. 
Over the past 3 years she has both taught Reading Recovery to 
children and provided professional training for other teachers.
    So I am very pleased she is here, and I appreciate the 
chairman inviting her.
    The Chairman. Very good. Thank you very much.
    We will start from Ms. Nathan, and then Ms. Rhodes and Ms. 
Primas.

 STATEMENTS OF RUTH NATHAN, READING TEACHER, ALAMO, CA; TRISHA 
 RHODES, READING RECOVERY TEACHER, HANCOCK COUNTY CONSORTIUM, 
 BAR HARBOR, ME; AND ELIZABETH PRIMAS, READING SPECIALIST AND 
       TEACHER, BOWEN ELEMENTARY SCHOOL, WASHINGTON, DC.

    Ms. Nathan. Thank you. Well, first of all, thank you for 
inviting me to be here. I am a third grade classroom teacher, 
and I work also----
    The Chairman. Could you bring that mike just a little 
closer? Thank you.
    Ms. Nathan. So I have my third grade classroom in San 
Ramon. And I also work with second-language learners, quite a 
few of them in the Napa Valley, as a reading specialist there. 
And I work with many teachers in California, through the 
Berkeley Reading, the Reading Certificate Program.
    And what I would like to say today is I would like to give 
you some clear recommendations about this Reading First 
Initiative. I honestly believe that all kids can learn to read. 
No one needs to be left behind, and hopefully, if we do it 
right, there will not be too many children that have to 
recover, that if we can a good job from the get-go, we are 
going to have more kids reading. So my remarks, I want to talk 
a little bit about how we have got to be kid centered. 
Everything we do has to be based on the way children learn, and 
more so than how teachers feel. Do you know what I am saying? 
We all want to be creative, but we need to take a look at the 
data, and so I am going go address that with my three hats that 
I wear.
    I want to ensure that the framework that we use, whatever 
frameworks we look at, have to be evidence-based, that they 
also must be trustworthy, they must be based on accurate 
assumptions, for example, about the way kids learn to read. We 
need to know models of how kids learn to read and we need to 
know models of how you read, how expert readers read, and which 
I tried to outline in the testimony I submitted. That is what 
you asked for. I do not support any particular model. I use 
everything that I can with all the kids that I teach. But we 
always go back to the data, and I will get to that again when I 
talk about my three jobs. The third thing is, whatever we do, 
in terms of these frameworks, they have got to be cost 
effective. We cannot be spending thousands and thousands of 
dollars on a limited number of kids. So we need to be cost 
effective so that we do not leave anyone behind.
    Let me explain the issue of the kids-centered in framework 
with my three hats. With my work in Napa Valley, I will give 
you a typical scenario. I work in four different schools out 
there, and one of the fourth grade classrooms is loaded with 
kids who are second-language learners, who have been in this 
country since they were in kindergarten and cannot read. And in 
that class you might have 32 children--actually that is what we 
have--and in that group of kids that cannot read, many of them 
are second-language learners, and I might have 12 of those 
children. When I first went out there, those fourth grade 
teachers--and we are talking about the importance of 
professional development--did not have a clue as to what to do. 
They have been through the universities, and there are very, 
very few classes really on how to teach reading and about the 
five subprocesses that Secretary Hickok mentioned. The teacher 
did not know the difference between phonemic awareness and 
phonics, and there is a huge difference. And they did not know 
how to help these second-language learners become fluent. And 
again, I will come back to those subprocesses.
    But also vocabulary development being taught explicitly, 
comprehension being taught explicitly. We know so much, as the 
National Reading Panel report clearly shows. We have all of the 
stuff out there that we need. We just need to put it to real 
good use, and professional development is key.
    So what we were doing in Napa was we went back to the 
alphabetics first. These kids could not negotiate the text. 
They could not read the words. And we went back and worked with 
them with a program that looked at the beginning as it were 
scripted which all teachers do not like. You know, ``Do not 
give me a scripted program.'' At least that is what people say. 
Not these teachers. They were so happy because they did not 
know what to do, and so in Napa they started working with that 
scripted program, but soon, the more they worked with it, the 
freer they could be till we had those kids up and running doing 
Readers Theater. It is all about the teacher, the tools. See, a 
framework can be, it is sort of like haiku or a sonnet. 
Sometimes a structure can create a situation. If you have a 
structure there you can be creative, but these teachers had no 
framework.
    The second hat. In my situation in third grade, I worked in 
a middle to upper middle class school. When I first came there, 
out of my 20 children--and this is incredible to me--8 of those 
kids were struggling as readers, in a situation where most of 
them should not have been. So what we did, when I got there, 
was we looked at the data. We went back and watched and saw 
what was happening to these kids. We talked to the kindergarten 
teachers, the first grade teachers, and we changed the program. 
Now we are in a situation where we have one particular program 
that has a strong framework that looks kind of scripted, but is 
not, because the teachers had had a lot of professional 
development in our district through the Consortium in Reading 
Excellence in California. Now, we only have a program--and 
Senator Kennedy might be interested in this--in K-2, because 
everybody is reading. By the time we are done with second grade 
in my school now, we can and are free to use literature as much 
as we want, and even now the second grade teachers, well, all 
the teachers use literature, but what I am saying is the 
framework that we needed was good enough in our K-1-2 to just 
get everybody up to par. This year we have no second grader 
that is not at grade level. It had never happened. Second 
story.
    Third story. I do teach, through the extension, through UC 
Berkeley, the introductory course to language and literacy. I 
just completed a class with 30 teachers. They are all coming to 
this because some of them say their educations were not enough 
and they just did not, again, even have the vaguest idea what 
to do, and half of them did know. A lot of them have had a lot 
of training with a lot of good programs, including Reading 
Recovery. So I say to them, ``Why are you here?'' Well, Reading 
Recovery teachers will tell you they are lifelong learners. 
They are the best and the brightest. I love them whenever I get 
them in my class. But they did say to me in the class--because 
we went back and used evidence-based articles. We went back, 
not only the National Reading Panel Report, but we went and 
read the articles that the report is based on, not all of them, 
but some articles in each one of the subprocesses. Even my 
Reading Recovery teachers said they learned anew.
    I think, going back to what I have said, we need to be kid-
centered, center on the data, and we need to have a framework 
that is evidence based, and absolutely, I agree with you, we 
absolutely have to have the best teacher training because--and 
if I can close with going back to the Napa story, the teachers 
that I was working with there, that I gave a program too, I 
said, ``Here is the way we will do it. You go ahead''--because 
I had to leave and I was not going to be back for 2 weeks--
``You begin to get your feet wet with this program and just 
deliver it as best you can, and I will come back in 2 weeks, 
and here is what I will do, I will watch you teach, and I will 
take notes. And then I will teach. I will give you feedback, 
and then I will do a lesson the next week.'' And that is what I 
did, and it was amazing. I watched them teach, and the kids, as 
I watched and as I took the notes, they were dying on the vine. 
It was not box. They got the program. And they could do a 
little bit with it, but you could tell what they needed was 
what I had, the tools. They needed professional development.
    So what I did was, on the next lesson, I took the same 
program and I tried to bring it to life using the tools that I 
have like word sorts, Phase Q texts, Readers Theater. And they 
saw where I was headed. There is no box that is going to teach 
anybody. There is no one program. It takes teachers that know 
what they are doing.
    So thanks very much for inviting me.
    [The prepared statement of Ms. Nathan may be found in 
additional material.]
    The Chairman. Very, very helpful. Thank you.
    Ms. Rhodes?
    Mr. Rhodes. Chairman Kennedy and members of the committee, 
thank you for this opportunity to speak from both personal and 
professional experience to what works for children learning to 
read.
    My career as an educator began as a speech and language 
teacher. Later I became certified as a classroom teacher and a 
literacy specialist. Then I taught 7th and 8th grade literature 
and language arts for 3 years. It was these experiences that 
led me to pursue training as a Reading Recovery teacher.
    Even with my background in language development and my 
training as a literacy specialist, I was frustrated with my 
inability to reach my struggling readers and bring them up to 
grade level. I knew they were being left behind. This led me to 
search for information about teaching children how to read in 
the early stages of learning. When I read about Reading 
Recovery, I was excited and impressed because Dr. Clay shared 
my beliefs that early intervention is crucial to reach children 
before they fail, and she had created a program of professional 
development based on scientific research.
    I asked my district to train me as a Reading Recovery 
teacher, and that training significantly added to my ability to 
teach emergent readers. My teaching was so successful that the 
decision was made to train Reading Recovery teachers in most of 
the schools in my district. Due to the high quality of ongoing 
training in Reading Recovery, all of the Reading Recovery 
teachers in my district have emerged as leaders in their 
schools. They have formed teams with classroom teachers and 
special educators to create more effective reading programs, 
and to establish standards and assessments in their individual 
schools and for our district as a whole. The result has been 
positive systemic change with Reading Recovery working with a 
variety of classroom approaches. An image to consider is that 
of a tricycle. The largest of the three wheels is classroom 
instruction, and the two smaller wheels are short-term early 
intervention, such as Reading Recovery, and long-term 
continuing support, such as special education. This image is 
helpful because it both illustrates the importance of classroom 
instruction and the importance of support services for low-
achieving students in order for the educational process to 
work.
    I have been teaching for 18 years, and 12 of those years 
have been spent teaching the lowest-performing first grade 
children how to read and write. I teach children every day, and 
the growth I see, not only in their ability to read and write, 
but in feelings of self esteem, is impressive. I have 
experienced firsthand the two positive outcomes of Reading 
Recovery. These are: the ability for children who are the 
lowest achieving at the beginning of first grade to accelerate 
into the average performance range of their classmates in just 
30 to 50 hours of instruction; and (2) the early identification 
of the few children who will need long-term support through 
special services to ensure that no child is left behind.
    Reading Recovery has served more than one million children 
since implementation in the United States in 1984. Reading 
Recovery meets the standards set by the No Child Left Behind 
Act. It includes the essential components of reading 
instruction, meets the definition of scientifically-based 
research, and uses rigorous assessments. It explicitly 
incorporates the essential components of reading instruction 
into every lesson including: comprehension, fluency, vocabulary 
development, phonemic awareness and phonics, teaching letters, 
sounds and word parts, and how to use them in figuring out a 
word. Reading Recovery is closing the gap for at-risk learners.
    In losing, I want to thank you for everything you have done 
and will continue to do for children who need the most help 
learning to read and write. More eloquent, however, are the 
thanks of parents and children whose lives were changed by 
Reading Recovery, and I will close with their words because 
they say it all.
    From a parent, quote: ``I just wanted to say thank you. 
Jason has just finished first grade, and I am happy to say that 
he is reading on grade level. He got on the school's honor roll 
during the second 9 weeks. Then he went on to the principal's 
high honor roll during the third 9 weeks. He just got his end-
of-year report and was reading on a level 18. He still reads 
every night, and reminds me if we forget. His love for reading 
is unbelievable. Reading Recovery builds more than just the 
ability to read. It builds the child's belief in themselves. I 
have become a huge advocate in my community. I am doing 
everything I can to spotlight this program so that all parents 
are aware that it is out there.'' End quote.
    And this from a 15-year-old former Reading Recovery 
student, quote: ``I still remember how I felt in first grade 
when many of my friends were reading and I just could not 
figure it out. I began to feel embarrassed and discouraged 
about school. I was then fortunate enough to be identified for 
Reading Recovery help. Right away I began to feel successful 
and feel like a reader. I cannot imagine what school might have 
been like without this invaluable support.'' End quote. And I 
will be happy to answer any questions. Thank you.
    [The prepared statement of Ms. Rhodes may be found in 
additional material.]
    The Chairman. Thank you very much.
    Ms. Primas?
    Mr. Primas. Thank you, Senator Kennedy and members of the 
U.S. Senate Health, Education, Labor and Pension Committee.
    I am Elizabeth Primas, a reading teacher and change 
facilitator for the District of Columbia Public Schools, and a 
member of the International Reading Association's Urban 
Diversity Initiative Commission. I am currently assigned to 
Anthony Bowen Elementary School in Southwest Washington, DC. I 
am a product of the DC. Public School system and continued my 
education at DC. Teachers' College, Trinity College and George 
Washington University. I have been employed by the DC. Public 
Schools for approximately 26 years and have worked as a change 
facilitator for the past 5 years. In that capacity I work with 
teachers, aides and children to attempt to provide a quality 
education to all students.
    My job has required me to assist teachers in implementing 
the reading program, Success for All. To facilitate that, I 
have provided professional development and administered 
assessments every 8 weeks to determine if students were making 
continuous growth and progress. In the last 5 years we have 
gone from 16 percent of children on or above grade level to 
more than 22 percent of students school wide. And almost 53.1 
percent of first graders and 48.7 percent of second graders are 
on or above grade level, an increase of 23.9 percent of first 
graders since we started and 5.3 percent of second graders in 
that same year of 1999 is where we were.
    It is my responsibility to select reading materials that 
match groups' reading abilities and to identify students who 
show signs of having difficulties in acquiring reading skills 
and strategies, such as phonemic awareness, phonics and 
decoding, vocabulary development, fluency and comprehension. 
Once students are identified as needing additional assistance, 
it has been my role to assign a tutor that will be able to work 
with the teacher and student to provide additional time on task 
to either help the child catch up or keep up with the reading 
group. While in theory this is just what a student may need, in 
reality, this is a very difficult task to accomplish. First, 
tutors, normally educational aides or paraprofessionals, have 
not had sufficient training to conduct a reading lesson with 
those children, who actually need the best and brightest 
teachers to guarantee their success. In addition to not having 
the best trained individuals working with those most in need, 
far too often these aides are not available to tutor since they 
are holding classes because there are no funds available for 
substitutes, or funds are available for substitutes, there are 
no substitutes available. And finally, when the child is pulled 
out to receive the prescribed 20 minutes of one-on-one 
tutoring, the child is actually missing some other aspect of 
the teacher's direct instructions, perhaps in math or another 
critical subject area.
    At Bowen Elementary School we recognized the problem and 
have tried to make adjustments and adaptations to bridge the 
gaps for those students who experience difficulties. We have 
recruited and trained individuals from organizations to provide 
volunteer tutoring and mentoring services for students in 
grades one through six. Bowen has been able to attract 
approximately 350 volunteers from all walks of life to donate 
an hour during the school day, often during their lunch hour, 
to develop a relationship with a student and stick with that 
child all year.
    While in general progress is slow, with the exception of 1 
year, it has been consistent. However, progress has not been 
sufficient for many of the students to reach desired grade 
level goals. Two students come to mind, and they are both at 
the very extremes of the educational spectrum.
    One sixth grade student that has been at Bowen for her 
entire elementary school experience has tested at the eleventh 
grade reading level in combined reading vocabulary and 
comprehension, while another sixth grade student only at the 
third grade level. The difference may be apparent. The first 
child, FG, attended Bowen from prekindergarten through sixth 
grade, and has done well in school consistently. Her mother and 
grandmother have been very supportive and she enjoys reading, 
math and science. Student AC, the second child, attended Bowen 
for a few years and then went to live with his father, who put 
him in a different school. After several years, and actually 
just a few months ago, he returned to Anthony Bowen to live 
with his mother and a new stepfather. With his latest move he 
acquired not only a new stepfather but a new brother and two 
cousins had to come live with him because their mother was 
unable to care for them.
    I bring these two students up because sometimes it is not 
enough to have a research based program because no program 
meets every child's needs. It is not enough to have your school 
overrun with volunteers who, while well intentioned, are still 
using time that should be instructional time with the teacher, 
tutors that should be in addition to the teacher, not instead 
of the teacher. Tutorial programs should be offered in 
noninstructional time slots, before school, after school or 
during the lunch hour. It is not enough to test every student 
every 8 weeks because testing does not, in and of itself, 
provide sufficient motivation for students to do better, and 
standardized tests do not usually provide sufficient diagnostic 
information to determine what deficits need to be remediated to 
advance the student.
    As a result of all of the assessments, the volunteers and 
interaction with teachers, children and parents, I have made 
some generalizations that I believe are true across all 
classrooms when it comes to the teaching of children.
    The solution is not the number of volunteers who provide 
random services, however well intentioned they may be. It is 
not the packaged programs, research based or not, one size does 
not fit all. When you look at students who consistently make 
the grades, they are those who have a support systems, and the 
key supports are stability of home, caring and involved 
parents, and most importantly, extensive classroom libraries 
and highly qualified teachers.
    Thank you again for this opportunity to testify. I look 
forward to answering any questions.
    [The prepared statement of Ms. Primas may be found in 
additional material.]
    The Chairman. Thank you, a very, very helpful panel 
covering a number of different aspects of the challenge.
    I will start. Ms. Nathan, in your testimony you say, ``I 
want to say that all teaching must occur in classrooms and 
schools that are safe and where children are well-fed, that 
they are rich in love, respect for children, they have school, 
classroom libraries filled with recent books for all types of 
readers, at many grade levels, and they cover many knowledge 
domains.''
    Is it your sense that we need to do more in terms of school 
libraries and upgrading these school libraries?
    Ms. Nathan. Yes, absolutely. I read online a good deal of 
the text of Mrs. Bush's meeting, and I thought it was very 
important, absolutely. We need current books. We need 
especially a lot of nonfiction. Actually, many libraries have a 
lot of current fiction. It is the nonfiction, biographies that 
inspire kids. But I will tell you, it is not just the libraries 
because you can have a huge classroom library, and you can have 
a huge school library given to you, but what if the teacher 
does not read the books? I read every night, actually every 
morning, 5 o'clock, a child's book, every day of the year. That 
means that I can hook my kids, so during that dear time, which 
is am very worried about, sustained silent reading, and I went 
on and on in my testimony about it, I do not care what anyone 
says, I am not giving it up. But the reason that it works in my 
classroom is that I read the books, I can hook kids with the 
books that they really care about, I can find out what their 
interests are, and make sure that we order those books.
    Do you understand what I am saying? It is not just the 
library, it is teachers that read the books. And also the kids, 
as I said in my testimony, help each other because they have 
time to share the books they love in school. But, yes, we need 
more books.
    The Chairman. Good, good, good.
    Ms. Rhodes, I understand that some researchers have written 
a letter that Reading Recovery is not evidence based, and I 
understand 102 researchers have written a letter saying it is 
evidence based. What is your comment?
    Mr. Rhodes. I would say that it has a strong research base. 
The structure and design of it are consistent with a large body 
of substantial research on reading and writing behaviors, and 
it uses systematic empirical methods to collect data annually 
on all children, and it is reported in numerous peer-reviewed 
research articles or research reviews that offer support.
    Reading Recovery is different from a lot of programs in 
that it is highly accountable. Each child's progress is 
measured using standard, valid and reliable tests of letters, 
words, sounds and reading books.
    I think the hardest thing for a Reading Recovery teacher to 
realize is that she is also a researcher, and watching them 
transform to not only being a teacher but to being a researcher 
is really quite exciting.
    And the continued progress of children after Reading 
Recovery has been externally validated in countries all over 
the Nation. In Maine we just recently completed a longitudinal 
study on fourth graders, using our Maine State assessment, and 
what we found was that 84 percent of Reading Recovery children, 
who successfully completed their series of lessons, met the 
State standards in reading in fourth grade. What to me was even 
more amazing was the 74 percent of the children who did not 
successfully discontinue, but who needed more kinds of long-
term support, also successfully met the State standard.
    So I think that it is very accountable, it has the research 
to back it.
    The Chairman. Very, very helpful comments.
    Ms. Primas, when you look at your school, I am thinking 
again about funding, could we do more with the professional 
development for the teachers? We have heard a great deal about 
the importance of professional development, more in terms of 
books in the library, after-school programs that give focus to 
children who have fallen behind in terms of reading?
    Mr. Primas. Absolutely. That is the key to us making 
progress. The progress that we have made in the last 5 years, 
all teachers were required to take additional workshops. That 
makes a smattering of improvement. But this year, because of 
the Reading Excellence Act, all of our pre-K through third-
grade teachers took two full graduate credit reading courses, 
and we jumped. So just with the same reading program, but just 
additional training to the teachers, we made those big 
increases.
    Last year we actually dipped, and I said in my testimony 
that, with the exception of 1 year, we had continuous progress, 
but slow. This year, as we finished our testing, 68 percent of 
our first graders are now on grade level, as opposed to 20 
percent our first year, but the really great increase was this 
year, with those teachers getting additional training. It is 
not enough for us to just train the pre-K through third grade 
teachers. Our fourth-, fifth- and sixth-grade teachers are 
getting those kids who still cannot read. They need the 
training, also, and every teacher needs the training, 
regardless of their competent area.
    The Chairman. That is powerful, powerful testimony.
    And you all talk about this comprehensiveness that we are 
looking for, and professional training is such a key, libraries 
are such a key, different ways or approaches for children, 
different children learning at different speeds and making this 
responsive to children in this comprehensive way is just so 
important. It is going to take investment too. We just cannot 
do this on the cheap, and I think you have been very helpful in 
spelling out some of these very important needs.
    Thank you.
    The Chairman. I am going to have to depart, but Senator 
Collins has been very gracious, as she always is, and is 
willing to chair the remainder of the hearing, which I am very 
appreciative of.
    Thanks, Senator Collins.
    Senator Collins. [presiding]. Thank you, Mr. Chairman. You 
know I have always wanted to be the chairman of this committee. 
[Laughter.] So, even if it is just temporary, I am honored to 
conclude the hearing, and I thank you for holding it.
    First, let me thank all of you for your testimony. It is so 
important for us, as policymakers, to hear from you who are 
actually out there day in and day out teaching children to 
read, helping other teachers to be effective. Oftentimes, we 
hear from people who are not on the front lines, and it is 
great to have your testimony.
    I also want to point out there are many reading experts in 
the audience today, but one of them is from my home State of 
Maine, and since I am now chairman, I get to acknowledge that 
she is here. So I want to welcome Dr. Paula Moore from the 
University of Maine, who is an education expert, and who has 
accompanied Ms. Rhodes here today.
    Ms. Nathan, I was very interested in hearing your 
discussion of the classroom with a great number of children for 
whom English was not the first language. The face of Maine has 
changed in the past 5 years so that several of our communities, 
particularly Portland and Lewiston, have seen an influx of 
immigrants and refugees who do not speak English.
    Do you think, since that phenomenon is really happening in 
communities all across the United States, that our colleges of 
education need to do more to train teachers to deal effectively 
in teaching reading and other subjects, as well, to children 
for whom English is not the first language?
    Ms. Nathan. Yes, of course. I mean, I agree with that. We 
have a whole system in California the CLAD System, that trains 
every teacher, no matter what subject, on specific strategies 
for second-language learners. It ends up that the strategies 
for second-language learners are actually good for everybody, 
but you need to make it real, and you need to connect with 
their lives, and with their culture. Yes, so I would agree with 
that.
    Senator Collins. That has been a real challenge for some 
communities because the teachers, while excellent teachers, 
just have not had the experience of dealing with----
    Ms. Nathan. If I can go just a little further, one of the 
things I would like to add is that we are having a lot of 
success with helping children understand, you know, that whole 
issue of phonemic awareness--actually, I love the term 
alphabetics. I do not know why. Phonemic awareness in phonics 
is just such a mouthful, but the alphabetics of a language, the 
sounds, for example, in Spanish maybe there are--well, let's 
take Korean.
    I was working with Korean teachers the other day. Maybe 
there are about 24 sounds, 26 letters. It is real important for 
those kids to know which sounds in their language are the same 
as ours, which sounds are different and where there is no 
transfer. So it is important for teachers to know that.
    Also, the way those sounds are spelled, in Korean, there is 
a lot of one-on-one correspondence, as there is in Spanish, as 
well, in their home languages, but in our language, because of 
the history of English, and the many languages that comprise 
it, especially with the vowel system, there are several ways to 
spell a sound. That is the big ah-ha that a lot of our second-
language learners need, and that is where phonetic awareness, 
helping a child hear the sounds in our language and then very 
clearly showing the children how those sounds are spelled is 
what is really making a difference in California.
    Senator Collins. Thank you.
    Ms. Rhodes, before the hearing, we talked a little bit 
about the effectiveness of early reading programs and early 
intervention in helping to identify children who have reading 
difficulties before they become part of the special education 
program, because we know that with early intervention, that in 
many cases we can help a child become a good reader and avoid 
the need for special education. But it is my understanding that 
if a child becomes involved in the special education program, 
the chances of that child leaving are less than 5 percent.
    Could you comment on the relationship between early reading 
programs and avoiding the classification of a student as 
needing special education and the resulting costs of that 
classification?
    Mr. Rhodes. Certainly. First of all, I would like to say 
that there will always be some children who need something 
different than what the classroom has to offer because they 
learn in a different way.
    What we have found about Reading Recovery, when we look at 
it in terms of cost effectiveness, is that it has greatly 
reduced the amount of children who are qualified for LD in 
reading and who end up being retained in first grade 
specifically because of reading.
    Last year, we had 86,000 children who successfully 
completed Reading Recovery in the United States, and only 137 
of those 86,000 children were placed in special education for 
reading or writing at the end of first grade, and also only 194 
of these 86,000 children were retained in first grade because 
of reading difficulties.
    So I think there is a high correlation between early 
intervention and lowering the numbers in special education. I 
think the latest brain research shows us, again, the 
significance of intervening very early with children. So, yes, 
I think there is a high correlation.
    Senator Collins. Teachers also tell me that there is a 
window of literacy that is open particularly before third grade 
and that if you teach a child to read before third grade, the 
chances of that child becoming a good reader are extremely 
high, but that if the intervention occurs after third grade, it 
is much more difficult to help the child become a fluent 
reader, that that window of literacy slams shut.
    Could you comment on that? Is my understanding correct?
    Mr. Rhodes. Yes, and again I would refer to the brain 
research. I mean, I think it is amazing that Dr. Clay did her 
work way before all of the newest information that we have now 
on the brain imaging and things like that, but what we know is 
that those neuro pathways are created very early, and whether 
the language, reading or many kinds of learning and thinking, 
the brain is expanding so rapidly very young that that is the 
time to intervene, and by third grade those neuro pathways have 
been set, and it is very difficult at that time to change them.
    Senator Collins. Thank you.
    Ms. Primas, I was very interested in your comments because 
they reminded us of the importance of a stable home life for 
students, as far as creating an environment that is conducive 
for reading.
    Another important element is access to books at home. In 
Maine, the Maine Humanities Council has teamed up with some of 
our hospitals so that every new mother goes home with a little 
tote bag containing two books, so that we know that that child 
will have at least two books in the home.
    Furthermore, some pediatricians have followed that up with 
each well-child visit, another book is given to that child. I 
think that is just such a wonderful program.
    I do not know whether that is just in Maine or whether 
other States and the District of Columbia have similar 
programs, but could you comment on the need to get books into 
the home, not just into the school library.
    Mr. Primas. That is one of the key things I have spoken 
about in the past. There are some pediatricians nationwide who 
every time your child comes in, the child gets a little book. 
There are some OB-GYNs who give a book every time you come for 
a prenatal visit so the parent is beginning a library. So that 
is critical.
    We also have other clubs like RIF, Reading Is Fundamental, 
that gives children books two or three times a year every year 
that they are in school so that they do have books. This year, 
our school participated with the Pick and Roll, with the 
Wizards, and so they were given the motivations to read. So we 
have got kids going to the library, and they have got t-shirts 
signed by the Wizards, and they have got basketball cards.
    So there are a lot of programs around the country that 
encourage kids to read and actually put books into their hands 
and into their homes. If a child is read to even in vitro we 
know they will tend to come out more calm and more prepared to 
hear the language that they are going to be hearing in books 
because the language we usually speak is a little different 
from book language. Many kids may have a vocabulary that they 
come to school from that is not in the books. That is a nice 
way of putting it.
    So we need kids to hear book words and book language, and 
it really helps them, so that when they see those words in 
print, they have a point of reference and can understand what 
it means.
    Senator Collins. It is my understanding that children who 
are read to at home or much more likely to become early 
readers; is that correct?
    Mr. Primas. The research says that is correct. In fact, 
what we have done, and many schools have done it, and the 
research-based programs have already indicated that in order 
for a child to become a good learner, they need to hear reading 
modeled, so that most programs have the teacher, if there is no 
one else, read to them every day. So 15/20 minutes every day 
before they start their reading lesson, teachers model good 
reading by reading to the children.
    Also, many of our volunteers, we do not want them to teach 
skills. We want them to read to the children, read with the 
children and let the children see that I am reading for fun. I 
am not reading because I have a book report. I am not reading 
because it is my homework. I am reading because it is fun, and 
so that is really what we want the kids to learn.
    Senator Collins. I was going to ask you that very question 
because I assume that is what you have your volunteers do is to 
read to the children.
    Mr. Primas. They read as a partnership. At the beginning of 
the year, a volunteer may be doing most of the reading. They 
are kind of start light. So they give all of the support to the 
kids to begin with, and then as the child feels more 
comfortable and says, I want to read this page, okay, you read 
that page, and if you need help I will just tell you the word. 
I am not going to just sound it out, but I will just give you 
the word so it is not a struggle.
    And then toward the end of the year, we find the volunteers 
are just listening. They are not reading. They may be selecting 
books that their kids read at home and bringing them in and 
introducing them to kids or the kids may be going, This book is 
real good. I am going to read this one to you.
    So we really want them to start off doing more support, and 
at the end of the year, let the kids take the ball and run with 
it.
    Senator Collins. Thank you.
    I want to thank all of you for your testimony today. It has 
been very helpful to us, as we commit the resources to making 
sure that every child does have the opportunity and, indeed, 
does learn to read.
    I have visited almost 100 schools in Maine, and my favorite 
thing is reading to children in the elementary schools. There 
is nothing I like better. I hope that, although I would have no 
idea how to teach them how to read, that by telling them how 
much I enjoy reading, by reading to them, that I can help 
inspire a love of reading.
    So thank you for all of the work that you are doing. You 
have contributed enormously to our hearing today.
    The committee record will be held open for 5 days for 
members to submit written statements and any questions for the 
record. There may be additional questions for the record that 
we will submit to you in writing, but I thank you very much for 
being here, and this hearing is now adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Eugene W. Hickok
    Mr. Chairman and Members of the Committee: I appreciate the 
opportunity to appear before you today to discuss the Department's 
implementation of the Reading First program, authorized under Title I, 
Part B, Subpart 1 of the Elementary and Secondary Education Act as 
reauthorized by the No Child Left Behind Act of 2001. Reading First is 
the largest--and yet most focused--early reading initiative this 
country has ever undertaken, and is an academic cornerstone of the No 
Child Left Behind legislation. I am pleased to share with you the 
Department's efforts to ensure the successful implementation of Reading 
First and to ensure that all students learn to read well by the end of 
third grade.
    Reading First provides an opportunity for every State to apply 
scientifically based research--and the proven instructional and 
assessment tools consistent with this research--to teach all children 
to read. Reading First will provide the necessary assistance to States 
and their districts to establish instructional programs based on 
scientifically based reading research for students in kindergarten 
through third grade. Reading First funds will also focus on providing 
increased levels of professional development, to ensure that all 
teachers, including special education teachers, have the skills they 
need to teach reading effectively, and to screen, identify and overcome 
reading barriers facing their students.
    Reading First focuses on what works and will support proven methods 
of early reading instruction in classrooms. Scientifically based 
reading research has identified five essential components of reading 
instruction. This research demonstrates that children need explicit and 
systematic instruction in and mastery of these five interrelated areas 
of phonemic awareness, phonics, vocabulary development, reading fluency 
and reading comprehension strategies in order to become proficient, 
successful readers. Reading First focuses instructional methods and 
materials, assessments and professional development on these areas. 
Programs funded under Reading First will have to demonstrate their 
ability to address these components in a comprehensive and effective 
manner. However, as the Department has stated openly and repeatedly, 
there is no list of programs or materials that are ``pre-approved'' for 
use under Reading First. Indeed, while only proven, scientifically 
based programs and strategies may be funded and while we must keep the 
quality bar very high, a variety of paths may lead to making the goals 
of Reading First a reality.
    One of the most powerful aspects of the Reading First program is 
the opportunity States will have to reserve a meaningful portion of 
their award to build and maintain the requisite statewide capacity to 
teach all children to read by the end of third grade. While the 
majority of Reading First funds will be used to improve reading 
instruction at the district and school levels, each State may reserve 
up to twenty percent of its total allocation to carry out activities 
related to professional development, technical assistance, and 
administration and reporting. This funding will allow States to build a 
true internal capacity related to scientifically based reading 
instruction. This significant level of funding will provide States with 
the resources to extend this reading initiative and to improve 
instruction beyond the specific districts and schools that receive 
Reading First subgrants. Within each State, the expanded K-3 reading 
infrastructure made possible by Reading First funds can and will be 
leveraged statewide. While Reading First subgrants are appropriately 
targeted to each State's lowest-performing and most disadvantaged 
students, teachers throughout each State will develop the skills and 
receive the support they need to teach all children to read well. Over 
the course of the six-year grant period, millions of dollars will be 
dedicated to this purpose, and all children will benefit from what is 
known about effective early reading instruction.
    As helping States and local school districts ensure that all 
children are reading at grade level or above by the end of third grade 
is one of President Bush's highest priorities, the Department has 
developed and maintained a meticulous timeline for the implementation 
of the Reading First program. Within weeks of the President's signing 
of the No Child Left Behind Act, the Secretary held a series of Reading 
Leadership Academies. These Academies, attended by teams from nearly 
every State and territory, provided an in-depth, multi-day opportunity 
for States to learn more about the specifics of the Reading First 
program, as well as to hear from some of the Nation's leading experts 
on scientifically based reading instruction.
    On April 2, 2002, the Department released application instructions 
and non-regulatory guidance for the Reading First program. The 
application package also included the criteria for review of State 
applications. Reflecting both the critical need to improve reading 
instruction for this country's lowest-performing students and the 
complexity of the Reading First legislation, the review process for 
Reading First State grants is designed to hold all State plans to a 
consistent, rigorous standard. The Department anticipates that all 
States will participate in the program; however, State plans must 
satisfactorily address all program requirements before funds are 
awarded. To this end, the Department held Reading First grant writers' 
workshops on April 15 and April 22, 2002 to provide States with 
additional information on the application and review process. Using 
national activities funds, the Department supported the attendance of 
State representatives at these workshops. The Department also awarded a 
contract to provide technical assistance to States throughout the 
application process. States are already taking advantage of this 
individualized assistance available to them as they develop their 
Reading First plans. Support will also be available through this 
contract for States that need additional assistance in meeting the 
approval criteria.
    We have established an application submission and review schedule 
that meets the needs of both the States aiming to receive Reading First 
awards when the funds become available on July 1 and of those States in 
need of more time to develop high-quality plans. The Department began 
receiving applications from States on May 1, and has scheduled four 
rounds of review that will allow States with approved applications to 
receive funding on July 1. State applications received after these four 
rounds will be reviewed on a rolling basis as they are received.
    On May 13th, the Department announced the names of the more than 
seventy national experts and practitioners who will serve as review 
panelists. The Secretary, the National Institute for Literacy (NIFL), 
the National Research Council of the National Academy of Sciences, and 
the National Institute of Child Health and Human Development (NICHD) 
selected these expert panelists, as required by the Reading First 
legislation. The panelists include people with expertise in the 
acquisition of reading skills; the cognitive science of language and 
reading processes; prevention of reading failure; scientifically based 
reading research; professional development; school leadership; 
classroom teaching; curriculum development; early intervention; 
psychology; assessment, measurement and evaluation; reading and 
learning disabilities; special education; and management and 
accountability. The panelists received focused training on the specific 
program requirements and review process and criteria in May.
    In conclusion, I would like to say that the rapid and successful 
implementation of the Reading First program is a primary focus of the 
Department. We have worked vigorously and enthusiastically to provide 
States with the guidance, resources and support they need to develop 
high quality plans to improve K-3 reading instruction for all of our 
country's children. As we have met with States at our Secretary's 
Reading Leadership Academies, Reading First grant writers' workshops, 
and other events across the country, we have been consistently 
impressed and gratified at their energetic commitment to developing 
thoughtful Reading First plans that can be successfully implemented and 
will result in improved student achievement.
    Scientifically based reading research has shown us what works in 
teaching young children to read. Through the Reading First program, and 
with your continued support, States, districts and schools can 
dramatically improve student achievement.
    I would be happy to answer any questions you may have.
                   Prepared Statement of Ruth Nathan
    It's both a pleasure and honor to be here today a pleasure because 
I am deeply committed to the idea that all children can learn to read, 
and an honor because I am fully aware that other highly qualified 
teachers might be testifying rather than myself. Thank you for inviting 
me.
    My name is Ruth Nathan and I teach third grade at Rancho Romero 
Elementary in Alamo, California. Alamo is a small, middle to upper-
middle class town in Northern California. I've also taught migrant 
children in Florida, children of farmers in Iowa, professors' children 
in Wisconsin, and in Michigan I've taught in neighborhoods that have 
mixtures of children from. around the world. You might find it 
interesting to know that I also teach Introduction to Language and 
Literacy for UC Berkeley's Reading Certificate Program, offered through 
their extension; and that I've earned a doctorate in the teaching of 
reading from Oakland University in Rochester, Michigan.
    Given your charge, the implementation of the Reading First Program 
included in the Elementary and Secondary Education Act, the best thing 
I can do is to outline several of the research-based teaching practices 
that I use in my own classroom, as you've asked, as well as practices I 
model for colleagues and graduate students. I'll do this in the light 
of what we know about the reading process as it occurs in real time. By 
``real time,'' I mean what goes on as we actually read. After briefly 
discussing reading models that account for what we think happens while 
we're reading, per your request (Part I), I'll outline best teaching 
practices (Part II), and conclude with what, in my opinion, a reading 
program the federal government might sponsor needs in order to be 
effective.
  part i--reading models: what we know about the reading in real time
    Assuming that you are all competent readers, research from many 
different paradigms has shown us that as you read you look at all the 
words and recognize most of them automatically. While this might seem 
obvious, thirty tears ago folks weren't so sure. It was hypothesized 
that you used context to such a great extent that you only needed to 
sample words on the page. Now we know this isn't so: You look at all 
the words on the page and for the most part recognize them instantly 
and without much effort. Your automatic word recognition power leaves 
you with plenty of attention to focus on comprehension, which is 
sometimes easy and sometimes very difficult, as well as analyze, 
synthesize, and evaluate your understanding.
    The reading process that I've described is interactive. For 
example, the words you read interact with each other at the phrase and 
sentence level so you know what they mean, and at the paragraph and 
text level, too, so you understand the bigger picture. At the word and 
phrase level, for example, if you read ``off the record,'' you know the 
word ``record,'' proceeded by ``off the'' means ``not for public 
consumption,'' as opposed to ``record,'' something that spins around 
and let's you hear songs. The reading process is compensatory as well 
as interactive. This means that readers must compensate when one area 
of the system is weak. For example, when you're reading an article from 
another agency or a summary of legislation and come across a word you 
don't know the meaning of, you may examine the context and see if you 
can figure it out, or you could think hard about what you know on the 
topic and guess what the word means. My third graders do this, too, not 
only to figure out a word's meaning, but my weaker readers who have 
trouble decoding a word use the context to guess what a word says. Of 
course, there's a cost for compensation at the word recognition level: 
it takes attention away from comprehension. With attention allocated to 
figuring out how to say a word, there's often a loss to understanding. 
If this compensatory practice is a too-frequent strategy, my less-
skilled readers have trouble comprehending. This, in turn, can, and 
does, affect their desire to read, which will ultimately affect their 
vocabulary growth, concept development, self-esteem in our digital 
society, and motivation to learn through reading. Some call this the 
Matthew Effect, which translates to ``The rich get richer and the poor 
get poorer.'' It's my job to see to it that my kids all get ``rich'' 
insuring that their word recognition is automatic--fast and accurate. 
It is also my job to make sure all my students feel that can turn to 
books anytime they want: to learn, for personal enjoyment, or to read 
to a brother, sister, cousin, or younger friend.
                    part ii--best teaching practices
    The reading models I've outlined that have helped us teachers--
administrators, policy makers, and parents--understand reading as an 
interactive-compensatory process have lead teachers and other educators 
to propose many hypotheses about best teaching practices. Of late, many 
teachers look for research-based practices whenever possible. To base 
practices on guesses about what works is to leave children at risk. We 
need to test our hypotheses, and we need to find out for whom they work 
best and for whom they don't work at all.
    A few years ago a report emerged, the Report of the National 
Reading Panel: Teaching Children to Read, which was an evidence-based 
assessment of the scientific research literature on reading and its 
implications for reading instruction. Many teachers, myself included, 
use the report as a resource for selecting classroom practices we use 
to teach reading. It's amazing how many programs come to us, and how 
many inserves are delivered, that have little, if any, research base. 
Often the data offered is just correlational (this program is good 
because kids who use it score very high in their reading achievement), 
as opposed to causal (this program is very good because we've tested 
it, and we find that compared to other programs, or no program, kids do 
significantly better in reading achievement using our program).
    I'm testifying here today because I've been successful in teaching 
children to read and helping even my less-skilled readers want to read. 
Below, I'd like to 1) define the areas of reading those of us who teach 
reading to classrooms full of kids attempt to cover, 2) why each area 
is important, and 3), and name the characteristics of strategies that 
work, sharing a few along the way.
    Before beginning, however, I want to say that all teaching must 
occur in classrooms and schools that are safe and where children are 
well-fed; that are rich in love and respect for children; that have 
school and classroom libraries filled with recent books for all types 
of readers at many grade levels, and that cover many knowledge domains. 
This last point is important. Knowledge is power, and much of this 
power comes from being read to, being talked to a whole lot, having 
many experiences so that comprehension in easier, and eventually 
becoming well-read oneself. In addition, it's important to remember 
that good, on-going assessment helps us define what our students need 
to learn, and that information from assessments needs to be used as 
we--teachers--plan instruction.
  what teachers need to cover, why, and characteristics of effective 
                         practice with examples
    There are basically five sub-processes of reading: phonemic 
awareness, and phonics (the alphabetics of reading instruction), 
fluency, vocabulary, and comprehension. After explaining what each 
process is, I'll explain why it's important, give you a few 
characteristics of effective instruction, and share an example or two 
of typical classroom practice. On a few occasions, I'll explain why a 
particular reading strategy for a subprocess might be one I'd avoid, 
and why.
    Phonemic awareness (PA) is the ability to notice and think about 
and work with the individual sounds in spoken words. Children might 
know that a cat is a warm, furry animal that they might pick up, but 
early on they need to come to the understanding that the word ``cat'' 
has three sounds, /c/ /a/ /t/. Knowing this will be essential to their 
reading development. We know that most children don't become 
phonemically aware on their own, they need to be taught, and there's a 
huge body of research on practices that work. These practices are 
explicit and move up a phonemic awareness continuum.
    In the classroom, phonemic awareness work is noisy and explicitly 
taught! A quiet, pre-k or kindergarten classroom where kids are 
supposedly doing pa work isn't a classroom that's involved in pa work. 
In successful classrooms, you'll see explicit instruction: kids are 
matching pictures that begin with, or end with, the same sounds; or 
they're moving chips into little sound boxes--a box at a time--as the 
teacher says, for example, the three sounds in cat, ``/c/ /a/ /t/.'' 
Children will be saying these sounds, too, and moving a chips--or 
sometimes even moving letters--into little boxes from left to right as 
sounds in words are said. Another common practice, in addition to 
explicit instruction (not instead of), is to encourage children to 
write notes to people they know, even little stories. Writing helps 
young children think about the sounds in words they say. English 
Language Learners benefit from phonemic awareness work, too, because pa 
is based on concepts, not on any certain set of specific sounds.
    Work can begin in their home language and quickly transfer to 
English. The bottom line, what you need to know and understand, is that 
phonemic awareness has to be explicitly taught to children who need 
this instruction, which is most; and then practiced in real situations, 
like when it's used by young children to write as best they can, and 
when teachers or caregivers teach youngsters to say tongue twisters 
(Peter Piper picked . . . ) and nursery rhymes for fun. Tongue-twisters 
and rhymes attune the ear to the sounds in words.
    Even my third graders need to be phonemically aware, not just young 
children, and this point is very important. For example, if my third 
graders are learning how to spell ``receive'' they've got to know how 
many sounds there are in that word. This will help them understand my 
explanation of why the word ``receive'' has seven letter, but only five 
sounds. Even older children need to be phonemically aware to use a 
dictionary to pronounce unknown words. Dictionaries show students word 
sounds in code first, and only after they see how many sounds there 
are, can they use the code at the bottom of the page to pronounce the 
word!
    While phonemic awareness does not insure success in reading, or 
spelling, it is at the core of both processes. Pa is not an endpoint, 
but as you've seen, knowing that words are made of sounds helps 
students understand phonics instruction, can help them learn to spell, 
and can even help them learn to use the dictionary. Students who don't 
get explicit and systematic phonemic awareness instruction are at risk 
for learning to read, especially children who must learn to read in 
school.
Phonics
    As I've said earlier, phonics is the systematic relationship 
between letter sounds and the way sounds are spelled. There are about 
43 sounds in English, and about 100 different frequent spelling of 
those sounds. Phonics needs to be taught explicitly and systematically. 
Phonics is a tool that allows children to become proficient readers who 
recognize words effortlessly and rapidly, and who don't need to use 
context to guess at words very often. Beginning readers use phonics 
skills to pronounce words that are not readily recognized. As students 
progress in their reading development, they draw on other word attack 
skills, such as the recognition of sight words, the recognition of word 
parts (such as syllables; roots, prefixes, and suffixes; and common 
letter groupings called phonograms [ook, aid]), and the use of context 
to confirm pronunciations and resolve ambiguity. Children need to learn 
these sound/symbol relationships and how to use them very well in order 
to read (decode) and to write (encode).
    Guessing what a word might say using picture cues is not reading. 
Guessing at words we don't recognize by using context takes attention, 
thus reduces available attention to understand. While context use is a 
strategy for recognizing words as wholes or by a first letter, whole 
word reading doesn't work for long: there are thousands upon thousands 
of words in our language. Phonics, like phonemic awareness, is not an 
endpoint. Knowing sound/symbol relationships frees kids from needing to 
use context to guess what words say and allows most of their effort to 
go toward comprehension. Research has shown us that systematic 
instruction in phonics is better than any sort of random or 
nonsystematic instruction or no instruction at all.
    In the classroom, phonics instruction should be context based. Kids 
need to use what they've learn about sound/symbol correspondences right 
away, in books and in short rhymes or texts, that use the sounds just 
learned.
    [I]f we're working on ``B''s and ``A''s and ``T''s, we don't ask 
kids to read the word: can. We work on words like ``bat'' and ``at.'' 
And we give them practice using the tools that they are learning, so 
that they see the efficacy of those tools and they begin to see and 
discover the routineness and some of the patterns in our language. 
Phonics instruction is most effective when it's begun in kindergarten 
or first grade.
    The above quotation in no ways suggests, that kindergarten and 
first graders only need to be exposed to little books with the sound/
symbol correspondences they've learned; it only means that a good 
portion of the reading material available to them needs to be based on 
what's been taught. We know full well that a few children learn to read 
on their own--that they gallop ahead of any given teacher's program, 
but this is really quite rare. Also, children delight in pattern books 
they can memorize (e.g, Brown Bear, Brown Bear what do you see?), which 
are full of words they couldn't recognize if they hadn't memorized the 
text; and in hearing great children's literature, so that they'll want 
to learn on their own and be able to talk about books with their 
friends.
    Phonics instruction in the classroom is sometimes all class, but 
often small group, and individually designed, as needed. You'd know 
phonics instruction was going on if you saw a teacher explicitly using 
those sound boxes I mentioned in the phonemic awareness section of this 
short review, but in the sound boxes you'd always see the letters used 
to spell each sound. Children will probably be reading little books 
that give them practice in using the sound/symbol correspondences 
they've learned, often called decodables. Sound/Spelling cards will 
probably be visible (cards with letter sounds accompanied by a picture 
and typical sound/spellings); word walls with word families would be up 
(cat, bat, sat, pat; boil, soil, toil), sight word walls would also be 
seen, walls with words not spelled phonetically--words children just 
need to know, like ``should'' and ``of.'' English Language Learners 
would have the benefit of teachers who speak their language and/or who 
know strategies that will work for them. Teachers of ELL students need 
to know which sounds from a home language transfer to English, which 
sounds, don't, and where there's no transfer at all.
Fluency
    A student is fluent if he or she reads quickly and with expression. 
``Like music, it consists not only of rate, accuracy, and automaticity, 
but also of phrasing, smoothness, and expressiveness. Some say it's the 
most neglected sub-process of reading. Fluency is important to 
comprehension because we comprehend using chunks of information, and 
when students read word-by-word, it's harder to hear and understand the 
connections between words, and then, of course, between phrases and 
whole paragraphs.
    Research shows that repeated monitored oral reading practice can 
improve students' fluency. Fluency, as phonemic awareness and phonics, 
needs to be taught explicitly. One way to do this is to begin my 
providing kids with a fluid model of what a given text sounds like, and 
these stories or articles need to be at the student's independent 
reading level (about 95% accuracy). In my classroom, I provide a taped 
version of stories and I add slashes between phrases. My students who 
are not fluent/ practice reading/ to the phrase marker/ fluidly.// 
Later/ they read/ the same text/ without the markers.// In addition to 
many fluency programs that are available, teachers often use readers' 
theater to do what's been suggested above. I certainly do. I model what 
the script sounds like, and students practice over and over again until 
they can perform their readers' theater play. ELL learners benefit, 
especially, from fluency work that uses drama because they get involved 
with the problems and solutions of characters in stories and feel more 
light-hearted and more willing to learn the target language.
    In addition, students need plenty of time to practice reading in 
order to build fluency. Unfortunately, a lot more research needs to be 
done on the best way to conduct sustained silent reading a practice 
where kids just read. One reason we need more research is that teachers 
will tell you sometimes their lowest kids just flip through picture 
books, or content picture encyclopedias, and so on during ``just 
reading'' time. Fortunately there are many good books that show 
teachers how to turn their sustained silent reading time into 
worthwhile time for all children. The bottom line is that teachers have 
to read a lot of books in order to know which books to suggest to whom. 
Also, my students share summaries of books they love. We all need to 
figure out a way to research best practices for ``just reading,'' 
because most of us, myself included, allot from 20-45 minutes a day for 
the practice. That's a huge amount of time, and we need to make sure 
all kids are using it to full advantage. While I've made inroads, I'm 
sure I could learn more.
Vocabulary
    Your vocabulary consists of words you need to know to communicate. 
We have an oral vocabulary, words we use when we talk; and a reading 
vocabulary, words we know if we encounter them in print. Students who 
have a large oral vocabulary benefit when they read because they can 
better understand the text's message. When students have a large oral 
vocabulary, they benefit when they read because they can match up an 
unknown word with something they've heard before. For example, because 
my third graders do a lot of hands-on science, when they come to 
scientific words in their textbook, they can get close enough to saying 
these words, using word analysis and phonics, to recognize the word 
they'd used orally in their science-project discussions.
    In the classroom, we want to see vocabulary taught directly and 
indirectly. Kids have to learn about three to five thousand words a 
year, too many to learn in direct lessons. In direct instruction, 
teachers usually introduce the words they think need teaching (highly 
useful words in a story or article that the context doesn't support). 
This is followed by discussing the word, reading it in the context its 
used, and often using a graphic organizer that illustrates the word's 
category, its characteristics, examples of ways to use the word, and 
what the word is like or not like. You'll also see many strategies that 
help students understand a word's root and all the words related to it. 
Roots are very generative; take ``mem,'' for example, which means 
``mindful of `` In about two minutes you could probably name at least 
forty words related to this root (e.g, memorize, remember, memo, etc.). 
You'll also notice that many ELLs are very adept when it comes to using 
roots, more so than most English speakers, so teachers need to take 
advantage of this. Teachers also spend a good deal of time getting 
students in the habit of examining context to understand a words 
meaning.
    Though students can learn words through direct instruction, we must 
remember that students learn most words indirectly, though reading and 
hearing new words spoken by their parents, teachers, and friends. This 
is even more reason for teachers across the country to design research 
that shows the value of reading a lot in school. These days kids are 
often busy after school with sports and lessons, or they're in daycare 
centers that often don't support literacy activities, such as reading 
and writing. Also, we want to pay attention to programs and teacher 
practices that get kids reading outside of school, looking always for 
the research base that would support the practice, whatever it might 
be.
Comprehension
    All else that I've discussed leads us to the end point, text 
comprehension. We know that good readers are purposeful and active when 
they read. They read for a purpose and they're always thinking and 
working through the text. Their brains are very active while they are 
reading. The National Reading Panel Report identified seven strategies 
that research shows work well, and I use them all explicitly!: 1) 
teaching kids to monitor their comprehension (know when they're 
understanding what they're reading and know when comprehension is 
breaking down, and what to do about it); 2) cooperative learning 
(letting students instruct or interact over the use of reading 
strategies); 3) teaching them to use graphic and semantic organizers, 
which are small maps that show the structure of the text they're 
reading; 4) teaching them how to answer questions they ask themselves 
as they read and where to look for answers they ask themselves or that 
are asked of them); 5) being able to generate questions about what 
they've read; 6) teaching children to recognize story structure (Is it 
a narrative? Is this exposition compare/contrast? chronologically 
ordered? etc.); and 7) summarizing (identifying the main idea, knowing 
when a detail is not a main idea, excluding redundant information, 
etc.). In addition, many of these strategies have also been effectively 
used in another category, ``multiple strategy instruction,'' where 
students and teachers flexibly use several strategies at once. This has 
been very hard to do, but I've found that if I give students pictures 
of the strategies we've learned (a summarizing logo--for example, a 
table with legs--at the same time as they see a visualizing logo (two 
eyes with a think-bubble), they know to summarize and than visualize 
their summary--or they can visualize the passage first, and then 
summarize.
    If you walked into a classroom, you'd be able to pick out a teacher 
who uses comprehension strategies that are research-based rather 
quickly. First, during reading time you might see small, guided reading 
groups, where students use literature or anthologies, or sometimes 
poems, to teach or practice a new strategy. If ELL learners are in the 
room, or even if you're in area where there is diversity of any kind, 
you might notice many books written by authors who come from other 
countries other than our own and used in guided reading sessions. 
Additionally, you might see charts with strategy instruction tool 
belts; you might see collections of graphic organizers; you'd probably 
see evidence of reading-across-the-curriculum, because there's not 
enough time in the day to get in all the comprehension strategy 
instruction that needs teaching. You'd also hear a lot of talk using 
comprehension strategies all throughout the day, especially as the kids 
try to understand what they read on the Internet, as well as during 
their literature study circle time. During read alouds, you'd notice 
that 1, and most teachers, stop sometimes as we read and to talk about 
how we're comprehending the story if there's a confusing part, or how 
we're feeling about characters, or what we're learning that's new in a 
nonfiction book.
    Someplace in the room, you might see a Question-the-Author charts, 
too, if the teacher has to use textbooks, which most of us do. 
Question-the-Author charts are lists of queries the children and I ask 
as we try to figure out what the textbook is saying. I used to write 
all the queries myself (e.g, Why do you think the author put this graph 
right here?), before the kids read; but now, while I still write 
queries prior to teaching, I find we all benefit from writing queries 
together as we stumble over difficult textbook writing.
                               conclusion
    In conclusion, if you were to ask me what I'd look for such that no 
child would be left behind in reading, Id say that the federal 
government should only invest in comprehensive, effective reading 
programs: Here are questions I'd ask and /or guidelines I'd consider.
    1. Is there money set aside for teacher preparation and/or 
inservice that teaches research-based strategies? It's been my 
experience as I work with classroom teachers through my university 
work, at my school, and in schools for whom I consult (four this year, 
in the Napa Valley), that many are under-prepared to teach reading. It 
doesn't seem to matter how these teachers have been prepared--there, 
are holes they need filed that are basic, not subtle. By basic, I mean 
understanding the difference between phonemic awareness and phonics. By 
basic, I mean knowing the linguistics of English and how English is 
alike and different from the languages their students speak. By basic, 
I mean how to choose vocabulary words to teach, given an article or 
textbook, and explicit strategies that work. By basic, I mean knowing 
children's literature such that they can hook specific kids with 
specific books. By basic, I mean how to use a teacher's manual to teach 
comprehension strategies, and how to use children's literature to teach 
strategies. This work is very, very hard! I would demand that any 
grant, if it includes a teacher preparation segment, address these 
issues, and that teachers understand how much they have to do in 
explicit ways. (See #3, below.)
    2. If grants that come to you include a program, ask to see the 
research that supports the program and that the program shows teachers 
how to teach all the sub-processes both explicitly and implicitly. If 
the program has no research base, don't consider it. If a program 
acknowledges that it's evidenced-based, check it out. Also, all 
programs should include a professional development strand that works. 
Not all day, one day, affairs! We've got a lot of research on how to 
conduct professional development that works. Good professional 
development requires extended time for initial training, includes 
discussions of research how children learn to read as well as 
instructional strategies, coaching, and regular meetings.
    3. Make sure that any grant includes many methods for teaching 
second language learners, while at the same time deeply honoring 
student's home traditions and beliefs. Students need to have the 
advantage of having teachers who use effective ELL strategies, and 
these strategies should be research based.
    4. Promote whole school approaches. While a whole school may not 
choose the same programs, everyone in the school needs to be talking 
the same language and everyone needs to have the same focus. For 
example, our school is focusing on comprehension strategy instruction. 
Everyone is reading books during the summer related to comprehension 
instruction, and during the summer we're going to build our plan.
    5. Any grant should involve parents, who are then encouraged to 
participate in their children's education. Teachers should make special 
efforts to open communication with parents by encouraging them to take 
an active interest in their children's learning and in their school 
work. Regarding learning, parents can read to their children, and 
programs can show parents how to do that. Parents can be encouraged to 
take their children places, so their background knowledge expands. 
Parents can monitor their children's homework, request reading for 
homework, and take their children to the library. If parents don't 
speak English, any program written into a grant should include letters 
to parents in the language the parent's speak; activities for parents 
to do at school with teachers and students, and activities to do at 
home should be outlined; and there should be opportunities for parents 
to volunteer. Parent involvement correlates with reading achievement, 
and until further research has been done, logic would have us act upon 
this correlation.
    Thank you for the opportunity to serve you and the children of this 
country.
                  Prepared Statement of Trisha Rhodes
    Chairman Kennedy and members of the committee, thank you for this 
opportunity to speak from both personal and professional experience to 
what works for children learning to read. My career as an educator 
began as a speech and language teacher. Later I became certified as a 
classroom teacher and a literacy specialist. Then I taught 7th-8th 
grade literature and language arts for three years. It was these 
experiences that led me to pursue training as a Reading Recovery 
teacher. Even with my background in language development and my 
training as a literacy specialist, I was frustrated with my inability 
to reach my struggling readers and bring them up to grade level. I knew 
they were being left behind. This led me to search for information 
about teaching children how to read in the early stages of learning. 
When I read about Reading Recovery I was excited and impressed because 
Dr. Clay shared my beliefs that early intervention is crucial to reach 
children before they fail, and she had created a program of 
professional development based on scientific research.
    I asked my district to train me as a Reading Recovery teacher, and 
that training significantly added to my ability to teach emergent 
readers. My teaching was so successful that the decision was made to 
train Reading Recovery teachers in most of the schools in my district. 
Due to the high quality of ongoing training in Reading Recovery, all of 
the Reading Recovery teachers in my district have emerged as leaders in 
their schools. They have formed teams with classroom teachers and 
special educators to create more effective reading programs and to 
establish standards and assessments in their individual schools and for 
our district as a whole. The result has been positive systemic change 
with Reading Recovery working with a variety of classroom approaches. 
An image to consider is that of a tricycle. The largest of the three 
wheels is classroom instruction and the two smaller wheels are short-
term early intervention such as Reading Recovery and long-term 
continuing support such as special education. This image is helpful 
because it both illustrates the importance of classroom instruction and 
the importance of support services for low-achieving students in order 
for the educational process to work.
    I have been teaching for 18 years and 12 of those years have been 
spent teaching the lowest performing first grade children how to read 
and write. I teach children every day, and the growth I see, not only 
in their ability to read and write, but in feelings of self esteem, is 
impressive. I have experienced first hand the two positive outcomes of 
Reading Recovery. These are: 1) the ability for children who are the 
lowest-achieving at the beginning of first grade to accelerate into the 
average performance range of their classmates, and 2) the early 
identification of the few children who will need long term support 
through special services to ensure that no child is left behind.
    About Reading Recovery: Reading Recovery has served more than one 
million children since implementation in the United States in 1984. 
Reading Recovery is:
    A short-term (12 to 20 weeks) early intervention that helps lowest-
achieving first grade children develop effective strategies for reading 
and writing at grade level.
    Intensive, daily one-to-one instruction for thirty (30) minutes 
that supplements the child's classroom learning.
    An integral component of a comprehensive literacy program that is 
compatible with all classroom teaching approaches.
    A year-long training course and on-going training for every year 
that the teacher teaches children Reading Recovery.
    Accountable with program evaluation that counts every child, 
monitors results, and makes changes based on results.
    Available in Spanish, French, and under development in other 
languages around the world.
    Reading Recovery and the No Child Left Behind Act (NCLB): Reading 
Recovery meets the standards set by the No Child Left Behind Act. 
Reading Recovery includes the essential components of reading 
instruction, meets the definition of scientifically-based research, and 
uses rigorous assessments. Reading Recovery is closing the gap for at-
risk readers. It explicitly incorporates the essential components of 
reading instruction into every lesson, including comprehension, 
fluency, vocabulary development, phonemic awareness, and phonics 
(teaching letters, sounds, and word parts and how to use them in 
figuring out a word).
    Reading Recovery has a strong scientific research base. The 
structure and design of Reading Recovery are consistent with a large 
body of substantial research on reading and writing behaviors that 
began in the 1960s and continues today. Research on Reading Recovery 
uses systematic, empirical methods to collect data annually on all 
children receiving service. Reading Recovery is reported in numerous 
peer-reviewed research articles or research reviews that offer support 
for various aspects of Reading Recovery.
    Accountability: Reading Recovery is highly accountable. Every 
child's progress is measured using standard, valid, and reliable tests 
of letters, words, sounds, and reading books. The continued progress of 
children after Reading Recovery has been externally validated in many 
states, school districts, and schools around the nation. In Maine, for 
example, a recent longitudinal study at the University of Maine found 
that 84% of Reading Recovery children who successfully completed their 
series of lessons met the state standards in reading in fourth grade. 
These results for the lowest achieving children who received 30 to 50 
hours of one-to-one instruction in the first grade are very impressive.
    Cost Effectiveness: The immediate impact of Reading Recovery can be 
felt in the school system in the form of reduced grade retentions and 
referrals to special education or other long-term academic support 
services. Of the 86,000 children who successfully completed Reading 
Recovery in the United States in 2000-2001, only 137 were placed in 
special education for reading or writing instruction at the end of 
grade one. In addition, only 194 of these 86,000 children were retained 
in first grade because of reading difficulties.
    Resources: Two-thirds of schools with Reading Recovery report using 
federal funds to assist with the cost of implementation. Reading First 
funds are important, but they are not the only answer to every child's 
reading difficulties. All parts of the NCLB Act must receive adequate 
funding for every eligible child to be served, and states and local 
educational agencies must be able to choose programs like Reading 
Recovery to meet their students' learning needs.
    In closing, I want to thank you for everything you have done and 
will continue to do for children who need the most help learning to 
read and write. More eloquent, however, are the thanks of parents and 
children whose lives were changed by Reading Recovery. I will close 
with their words, because they say it all:
    Parent: I just wanted to say thank you. Jason has just finished 1st 
grade and I am happy to say that he is reading on grade level. He got 
on the school's honor roll during the third nine weeks. Then he went 
onto the principal's high honor role during the third nine weeks. He 
just got his end of year report and was reading on a level 18. He still 
reads every night and reminds me if we forget. His love for reading is 
unbelievable. Reading Recovery builds more than just the ability to 
read. It builds the child's belief in themselves. I have become a huge 
advocate in my community. I am doing everything I can to spot light 
this program so that all parents are aware that it is out there.
    From a 15-year old former Reading Recovery Student: I still 
remember how I felt in first grade when many of my friends were reading 
and I just couldn't figure it out. I began to feel embarrassed and 
discouraged about school. I was then fortunate enough to be identified 
for Reading Recovery help . . . Right away I began to feel success and 
feel like a reader . . . I can't imagine what school might have been 
like without this invaluable support.
    I would be happy to answer any questions.
               Prepared Statement of Elizabeth V. Primas
    Thank you, Senator Kennedy, and members of the U.S. Senate Health, 
Education, Labor and Pensions (HELP) Committee. I am Elizabeth Primas, 
a reading teacher and change facilitator for the District of Columbia 
Public Schools and a member of the International Reading Association's 
Urban Diversity Initiatives Commission. I am currently assigned to 
Anthony Bowen Elementary School in Southwest Washington, DC. I am a 
product of the DC Public School System, and continued my education at 
DC Teachers' College, Trinity College and George Washington University. 
I have been employed by the DC Public Schools for approximately 26 
years, and have worked as a change facilitator for the past 5 years. In 
that capacity, I work with teachers, aides and children to attempt to 
provide a quality education to all students.
    My job has required me to assist teachers in implementing the 
reading program, Success For All. To facilitate that, I have provided 
professional development, and administered assessments every 8 weeks to 
determine if students were making continuous growth and progress. In 
the last five years we have gone from 16 percent of children on or 
above grade level, to more than 22 percent of students school wide. 
Almost 53.1 percent of first graders and 48.7 percent of second graders 
are on or above grade level, an increase from 23.9 percent of first 
graders in 1999 and 5.3 percent of second graders that same year.
    I select reading materials that match groups' reading ability, and 
I identify students who show signs of having difficulties in acquiring 
reading skills and strategies such as phonemic awareness, phonics and 
decoding, vocabulary development, fluency, and comprehension. Once 
students are identified as needing additional assistance, it has been 
my role to assign a tutor who can work with the teacher and student to 
provide additional time on task to either help the child catch up or 
keep up with the reading group. While in theory this is just what a 
student may need, in reality this is a very difficult task to 
accomplish. First, tutors, normally educational aides or 
paraprofessionals, have not had sufficient training to conduct a 
reading
    The Testimony of Elizabeth V. Primas of the District of Columbia 
Public Schools lesson with those children who actually need the best 
and brightest teachers to guarantee their success. In addition to not 
having the, best trained individuals working with those most in need, 
far too often these aides are not available to tutor since they are 
holding classes because funds are not available to hire substitutes, or 
substitutes are not available even if finds are available. And finally, 
when the child is pulled out to receive the prescribed 20 minutes of 
one-on-one tutoring, the child is actually missing some other aspect of 
the teacher's direct instruction, perhaps in math or another critical 
subject area.
    At Bowen Elementary School, we recognized the problem and have 
tried to make adjustments and adaptations to bridge the gaps for those 
students who experience difficulties. We have recruited and trained 
individuals from organizations to provide volunteer tutoring and 
mentoring services for students in grades one through six. Bowen has 
been able to attract approximately 350 volunteers from all walks of 
life to donate an hour during the school day, often during their lunch 
hour, to develop a relationship with a student and stick with that 
child all year.
    While in general progress is slow, with the exception of one year, 
it has been consistent. However, progress has not been sufficient for 
many of the students to reach desired grade level goals. Two students 
come to mind, and they are both at the very extremes of the educational 
spectrum.
    One sixth grade student who has been at Bowen for her entire 
elementary school experience has tested at the eleventh grade reading 
level in combined reading vocabulary and comprehension, while another 
sixth grade student tested only at a third grade level. The difference 
may be apparent, student FG attended Bowen from prekindergarten through 
sixth grade, and has done well in school consistently. Her mother and 
grandmother have been very supportive and she enjoys reading, math and 
science. Student AC attended Bowen for a few years and then went to 
live with his father who put him in a different school. After several 
years, a few months ago he came back to live with his mother and 
stepfather. With his latest move he also acquired a new brother, and 
two cousins who came to live with his mother because their mother was 
not responsible enough to take care of them.
    I mention these two students because sometimes it is not enough to 
have a research based program, because no program meets every child's 
needs. It is not enough to have your school full of volunteers -who, 
while well intentioned, are still using time that should be 
instructional time with the teacher., and should be in addition to the 
teacher not instead of the teacher. (Tutorial programs should be 
offered in non-instructional time slots--before school, after school or 
during the lunch hour). It is not enough to test the students every 
eight weeks, because testing does not in and of itself provide 
sufficient motivation for students to do better, and standardized tests 
don't usually provide sufficient diagnostic information to determine 
what deficits need to be remediated to advance the students.
    As a result of all of the assessments, the volunteers and 
interaction with teachers,, children and parents, I have made some 
generalizations that I believe are true across all classrooms when it 
comes to the teaching of children.
    The solution is not the number of volunteers who provide random 
services, however well intentioned they may be. It is not the packaged 
programs, research based or not, because one size does not fit all. 
When you look at students who consistently make the grade, they are 
those who have a support system, and the key components are stability 
of home, caring and involved parents and, most importantly, extensive 
classroom libraries and highly qualified teachers.
    Thank you again for this opportunity to testify. I look forward to 
answering your questions.
     Response to Questions of Senator Kennedy From Eugene W. Hickok
    Question. The President's budget provides $100 million more for 
Reading First, and I support that. But, overall, it cuts programs in 
the No Child Left Behind Act. Specifically, it cuts funding for 
literacy and teacher professional development programs such as level-
funding Early Reading First, cutting Even Start by $50 million, level-
funding the School Library program, and level-funding Title II of ESEA 
which supports teacher quality and class size reduction.
    In addition to these budget cuts, communities are facing increasing 
numbers of children in poverty and drastic state budget cuts to 
education. How can we expect more from teachers, schools and students 
without more resources? Shouldn't we do more--not less--to help them 
achieve?
    Answer. It is possible to argue about funding for specific 
programs-we made some tough decisions following September 11 but a look 
at the big picture shows that we are continuing to provide strong 
support for education. The $1.4 billion increase requested for the 
Department for 2003 will cap an extraordinary and unprecedented $15 
billion or 41 percent increase just since fiscal year 2000.
    Similarly, our $1 billion increase for Title I will result in a 
$3.4 billion or 43 percent increase since 2000, while our $1 billion 
increase for Special Education Grants to States caps a $3.5 billion or 
71 percent increase over the same period. Particularly since a lot of 
this new money has yet to hit our schools the massive increase for 2002 
is for the school year beginning next fall I think its pretty hard to 
make the case that the Federal government isn't doing its share when it 
comes to dollars for education.
    The No Child Left Behind Act (NCLBA) was not just, or even most 
importantly, about the size of the Federal investment in education, but 
rather about increasing our return on that investment. Frankly, we 
don't have a lot to show for the $190 billion that we have invested in 
the Elementary and Secondary Education Act since 1965, and dramatic 
growth in State and local funding for education over the past decade 
also has failed to either raise overall student achievement or to close 
the achievement gap for poor and minority students.
    We believe the combination of the very substantial new funding 
provided over the past three years and the reforms in the NCLBA will 
make a real difference in improving the performance of our schools and 
the achievement of all students.
    For teacher quality programs, the 2003 budget will provide 
resources under a number of programs that States and school districts 
can use to improve teacher quality in various subject areas. Some of 
these are major formula grant programs, such as Title I Grants to Local 
Educational Agencies and Improving Teacher Quality State Grants, that 
give States and local educational agencies (LEAs) flexibility to use 
the strategies that will best help them to improve teacher quality and 
thereby raise student academic achievement. In return for this 
flexibility, LEAs are required to demonstrate annual progress in 
ensuring that all teachers teaching in core academic subjects within 
the State are highly qualified.
    The Administration's fiscal year 2003 request provides a 25 percent 
increase over 2001 funding for programs that are focused solely on 
improving teacher quality. In addition, the 2003 request includes $1 
billion increases for Title I Grants to Local Educational Agencies and 
IDEA State Grants, which will enable States and LEAs to raise their 
investments in teacher professional development. For example, with the 
ESEA requirement that LEAs spend between 5 and 10 percent of their 
Title I allocation on professional development, the 2003 request would 
ensure that well over $500 million is targeted to this purpose.
    One of the main tenets of the President's plan for reforming 
elementary and secondary education is to ensure that all children read 
well by the end of the third grade. While Even Start's family-centered 
approach to school readiness supports the Administration's goal to 
improve children's reading skills, the budget request targets increases 
to the Reading First State Grants program, which finances direct 
instruction for students in kindergarten through third grade that is 
based on scientifically based reading research in order to improve 
their academic skills. The mixed evaluation results for Even Start 
support the lower request level.
    The two previous evaluations of the Even Start program focused on 
evaluating the components and outcomes of the Even Start model, which 
integrates early childhood education, adult education, and parenting 
education. On measures of literacy used in both of these evaluations, 
participating families consistently made gains each year. However, 
results from an experimental study during the first evaluation showed 
no difference in achievement between those who participated in Even 
Start and those who did not.
    The Department anticipates that we will award approximately 175 
Early Reading First grants with fiscal year 2002 funds. The fiscal year 
2003 request, along with strong dissemination efforts, will maintain 
the momentum for early literacy efforts that are based on scientific 
reading research. This program also complements the Reading First State 
Grants program, for which the Administration is seeking $1 billion in 
fiscal year 2003, an increase of $100 million. Combined with funds from 
other Federal early childhood education programs, including Title I 
preschool programs, Even Start, Special Education Preschool Grants, 
Special Education Grants for Infants and Families, and Early Childhood 
Educator Professional Development, the Administration believes that the 
fiscal year 2003 request for provides a significant investment in pre-
kindergarten programs.

    [Whereupon, at 11:20 a.m., the committee was adjourned.]

                                    

      

</pre></body></html>
